IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
NO.______________

_______________________________________
ARTHUR LEE LEWIS, Petitioner
vs.
STATE OF CALIFORNIA, Respondent
_______________________________________
PETITION FOR WRIT OF CERTIORARI
TO
THE CALIFORNIA COURT OF APPEAL
Second Appellate District
_______________________________________

KIERAN D. C. MANJARREZ
[kcmanjarrez@yahoo.com]
1535 Farmers Lane 133
Santa Rosa, CA 95405
Tel: 415 / 520 3512
[CBN: 62000]

Attorney for Petitioner

QUESTION PRESENTED FOR REVIEW

Review is requested to determine whether a sentence within the
prescribed statutory range but inconsistent with the jury's verdict complies
with the Sixth Amendment jury trial guarantee or the Due Process right to the
presumption of innocence and proof beyond a reasonable doubt

1

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW...........................................................................Face
PETITION......................................................................................................................................1
OPINIONS BELOW......................................................................................................................1
JURISDICTIONAL STATEMENT.............................................................................................1
CONSTITUTIONAL PROVISIONS INVOLVED...................................................................1
STATUTORY PROVISIONS INVOLVED ...........................................................................2
STATEMENT OF CASE ...........................................................................................................3
STATEMENT OF FACTS .........................................................................................................4
REASONS FOR GRANTING WRIT .....................................................................................8

REVIEW SHOULD BE GRANTED TO DETERMINE WHETHER A
SENTENCE WITHIN THE PRESCRIBED STATUTORY RANGE BUT
INCONSISTENT WITH THE JURY'S VERDICT COMPLIES WITH THE
SIXTH AMENDMENT JURY TRIAL GUARANTEE OR THE DUE PROCESS
RIGHT TO THE PRESUMPTION OF INNOCENCE AND PROOF BEYOND
A REASONABLE DOUBT. ..............................….................................................................8
I.

CONCLUSION ….....................................................................................................................22
APENDICES A, B, & C ….............................................................................................23 et seq

i

TABLE OF AUTHORITIES CITED
CONSTITUTIONAL PROVISONS
United States Constitution, Sixth Amendment ...................................3, 10, 14, 16, 22
United States Constitution, Fourteenth Amendment, Section One .................10, 17
SUPREME COURT CASES
Alleyne v. United States (2013) 570 U.S. 99 .............................................................11, 17
Apprendi v. New Jersey (2000) 530 U.S. 466 ..............................................7 and passim
Arizona v. Washington, (1978) 434 U.S. 497 ..................................................................13
Ashe v. Swenson (1970) 397 U.S. 436 ...........................................................................15
Blakely v. Washington (2004) 542 U. S. 296….......................................................7, 11, 12
Central Green Co. v. United States (2001) 531 U.S. 425 .................................................9
Cunningham v. California (2007) 549 U.S. 270
Estes v. Texas (1965) 381 U.S. 532

.....................................................13, 18

...............................................................................12

Harris v United States (2002) 536 U.S. 545 ..................................................................17
In re Winship (1967) 397 U.S. 358 ….............................................................................16
McMillan v. Pennsylvania (1986) 477 U.S. 79 …..........................................................17
Oregon v. Ice (2009) 555 U. S. 160 ............................................................................7, 11
Ring v. Arizona (2002) 536 U.S. 584 ..............................................................................7
Sealfon v. United States (1948) 332 U.S. 575 ................................................................15
Sparf & Hansen v. United States (1895) 156 U.S. 51 .................................................12
United States v. Booker (2005) 543 U.S. 200 ......................................................7, 12, 15
United States v. Watts (1997) 519 U.S. 148

.............................................10 & passim

United States v. Ashworth, (4th Cir. 200) 139 F. App’x 525 .......................................9
ii

United States v Boney, (DC Cir. 1992) 977 F,2d 624 .....................................................14
United States v Brown, (CA DC, 2018) 892 F.3d 385 ..................................................10
United States v. Dorcely, (D.C. Cir. 2006) 454 F.3d 366 …..............................................9
United States v. Duncan, (11th Cir. 2005) 400 F.3d 1297 ................................................9
United States v. Farias, (5th Cir. 2006) 469 F.3d 393 ......................................................9
United States v. Faust (11th Cir. 2006) 456 F.3d 1342 ..................................................10
United States v. Gobbi (1st Cir. 2006) 471 F.3d 302

...................................................9

United States v. Hayward, (3d Cir. 2006) 177 F. App’x 214.......................................... 9
United States v. High Elk, (8th Cir. 2006) 442 F.3d 622 ..................................................9
United States v. Mercado, (9th Cir. 2007) 474 F.3d 654 ..................................................9
United States v. Magallanez (10th Cir. 2005) 408 F.3d 672 ...........................................9
United States v. Nagell, (1st Cir. 2018) 911 F.3d 23 .......................................................9
United States v. Price, (7th Cir. 2005) 418 F.3d 771 .......................................................9
United States v. Vaughn, (2d Cir. 2005) 430 F.3d 518 ...............................................9
United States v. White, (6th Cir. 2008) 551 F.3d 381 .......................................................9
CALIFORNIA CASES
In re Coley (2012) 55 Cal.4th 524 …...............................................................................14
People v. Alvarez (2002) 27 Cal.4th 1161 ….....................................................................9
People v. Gutierrez (2009) 45 Cal.4th 789 …....................................................................8
People v. Minder (1996) 46 Cal.App.4th 1784 ….........................................................19
People v. Osband (1996) 13 Cal.4th 622 …....................................................................19
People v. Towne (2008) 44 Cal.4th 63 ….........................................................8 & passim
People v. Wright (1982) 30 Cal.3d 705

…...................................................................18
iii

SISTER STATE CASES
People v. Beck (2019) 504 Mich. 605, cert. denied 140 S. Ct. 1243 (2020) ...................16
State v. Marley (1988) 321 N.C. 415 ...........................................................................16
ENGLISH CASES
Bushell's Case (1670) 124 Eng.Rep. 1006 ...............................................................12, 13
FEDERAL STATUTES
28 U.S.C. section 1257, sub. (a)........................................................................................1
CALIFORNIA STATUTES
Cal. Pen. Code, § 187, subd. (a) .................... ...............................................................3
Cal. Pen. Code, § 1170, subd. (a)(2)

........................................................................18

Cal. Pen, Code, § 1170.3 ...................….........................................................................8
Cal. Pen. Code, § 1259 …...............................................................................................8
Cal. Pen. Code, § 1459 …................................................................................................8
Cal. Pen. Code, § 12022.53, subds. (b), (c) and (d) and (e)(1) .......................... 3, 23
Cal. Pen. Code, § 186.22, subds. (b)(1) and (b)(5) .....................................................3
OTHER AUTHORITIES
Cal. Rules of Court, rule 4.401. ….................................................................................22
Cal. Rules of Court, rule 4.420, subd.(b) .....................................................................19
Cal. Rules of Court, rule 4.423 ......................................................................................18
The Puzzling Persistence of Acquitted Conduct in Federal Sentencing,
and What Can be Done About It, 49 Suffolk Univ L Rev 1, 25 (2016) ........................9
Judicial Nullification of Juries: The Use of Acquitted Conduct at Sentencing,
76 Tenn L Rev 235, 261 (2009).......................................................................................10

iv

A Look at the Use of Acquitted Conduct at Sentencing,
88 J Crim L & Criminology 809 ...................................................................................19
2 J. Story, Commentaries on the Constitution of the United States
(4th Ed. 1873)…........................................................................................................11, 17

v

PETITION FOR CERTIORARI
Petitioner, ARTHUR LEE LEWIS, respectfully petitions for a writ of
certiorari to review the judgement of the California Court of Appeal, Second
Appellate District, Division Five affirming his conviction & sentence in the
Superior Court of Los Angeles County, California.
OPINIONS BELOW
The reported opinion of the California Court of Appeal, Second Appellate
District appears as Appendix A.
The order of the California Supreme Court dismissing the petition for
review appears as Appendix B.
JURISDICTIONAL STATEMENT
The judgement of the California Court of Appeal, Second Appellate
District was entered on 14 April 2021. A timely petition for review was filed on
24 May 2021. The petition was denied on 30 June 2012 . The jurisdiction of this
Court is invoked pursuant to 28 U.S.C. section 1257, subd. (a).
CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Sixth Amendment:
“In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his
defense.”
United States Constitution, Fourteenth Amendment, Section One:
“... No State ... shall abridge the privileges and immunities of citizens of
1

the United States; nor shall any State deprive a person of life, liberty, or property
without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws. “
FEDERAL STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1257, sub. (a):
Final judgments or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by the Supreme Court by writ
of certiorari where the validity of a treaty or statute of the United States is drawn
in question or where the validity of a statute of any State is drawn in question on
the ground of its being repugnant to the Constitution, treaties, or laws of the
United States, or where any title, right, privilege, or immunity is specially set up
or claimed under the Constitution or the treaties or statutes of, or any
commission held or authority exercised under, the United States.
RELATED CALIFORNIA STATUTES
(Please see Appendix C)
RELATED CALIFORNIA RULES OF COURT
(Please see Appendix C)

2

STATEMENT OF CASE
Petitioner, ARTHUR LEE LEWIS, and his brother Eric Roberts, were
charged with the murder of one Trevoon Brown (Pen. Code, § 187, subd.(a)), in
association and/or for the benefit of a gang (Pen. Code, § 186.22, subds. (b)(1)
and (b)(5).) (CT 258.) Petitioner was also charged with a weapon enhancement
(Pen. Code, § 12022.53, subds. (b), (c) and (d) and (e)(1) ). (Ibid.)1 By jury verdict,
petitioner's brother was acquitted and the gang enhancement was found not true
as to both defendants. (CT 573.) Petitioner was convicted of voluntary
manslaughter and the weapons enhancement was found true. (CT 573, 577.)
Petitioner was sentenced, inter alia, to the upper term on both the charge and the
gun enhancement for a total of 21 years, with 782 days pre-sentence credits. (CT
608; RT 5703.) Timely notice of appeal was filed on 28 October 2019. (CT 610.)
On appeal, petitioner argued, inter alia, that his upper term sentence
violated his Sixth Amendment right to a jury determination on all facts punished,
as well as his Fourteenth Amendment Due Process rights to proof beyond a
reasonable doubt of all facts punished. On 14 April 2021, the Court of Appeal
affirmed the judgement and sentence. A petition for rehearing, correcting
certain facts and requesting the court reach and rule on the Due Process claim
was denied. On 30 June 2021 petitioner's petition for review by the California
Supreme Court was also denied.

1 The enhancement also originally charged against Roberts was dismissed on
prosecution motion. (CT 449.)
3

STATEMENT OF FACTS
Alighting from a Los Angeles Metro train, at the Compton Station,
petitioner and Roberts became involved in a sudden fight with various other
men of roughly the same age, during which petitioner, concededly, pulled out a
gun and shot one Travoon Brown. All people thereupon scattered. (Exhibit No.
6, CT 304; RT 4244.) Brown was taken to hospital where he was pronounced
dead. (RT 2828.) An autopsy showed that a single gunshot wound had pierced
Brown's lung before “tumbling” down and coming to rest in the lower back. (RT
3312.) The gun was never found. (RT 3113.)
The key evidence in the case was Exhibit 6, a security video of the
confrontation. (CT 304; RT 4244.) That video showed petitioner and his brother,
Eric Roberts, exiting through the turn styles, at which point Roberts turned left
and walked over to a man seated on a bench outside the station perimeter.
Roberts testified that he recognized the man as an old high-school, football
buddy and that he went over to say hello. (RT 4245, 4247-4248.) Roberts then
walked back in the direction to where petitioner had remained standing in front
of the turn styles. At that point, Roberts was accosted by two or three larger
men, one of whom was Travoon Brown. Roberts testified that Brown attempted
to shake him down and that he threw a punch at Brown in response. (RT 42494255.)
Simultaneously with Robert's engagement with Brown, petitioner turned
and started walking towards his brother. (Exhibit 6.) As he did, he was violently
hit in the head, from behind, by a running assailant in a red hat. (Exhibit 6; RT
4

4257-4259.) Petitioner stumbled forward. Unfortunately, a post obscures
whatever occurred next; however, within seconds everyone is seen to scatter.
(Exhibit 6.)
The sole independent witness to the shooting, Ricardo Ramos, testified
that immediately before the fight he heard someone say “PJ Watts” and “Grape
Street.” (RT 3028-3029, 3033, 3034.) Ramos noticed the young man, who was
eventually shot, “right in the middle of [the commotion].” (RT 3023.)

He did

not have a weapon on him. (RT 3024.) Ramos testified that “[t]he young man
that was shot. He was the one who threw the first punch.” (RT 3024.) It landed
“in the back of the person that he was aiming for. In the back of his head. (RT
3024.) Ramos did not know if the person who was shot was wearing a hat. (RT
3036.) Ramos also did not remember what color clothes the person who hit
petitioner was wearing; “but I know the guy that got shot threw the first punch.”
(RT 3042.)2 After the first punch, “hands just started flying.” (RT 3025.) The
scuffle lasted about “two or three seconds” before Ramos heard the “pop” of a
gun. (RT 3024.) Brown turned around and started running toward Ramos, with a
“fear of death in his face.” (RT 3025-3026.) At trial, petitioner admitted intending
to fire a shot at Brown; however, he claimed self-defense. (CT 322; RT 308.)
Although petitioner and Roberts are each gang members they belong to
different gangs that have never collaborated and may in fact have been hostile to

2 Ramos was plainly confused as to the identity of the person who hit petitioner
from behind. The video shows indisputably that it was not Brown but
someone in a red hat that had emerged from behind. The video earlier
showed the same man in a red hat standing in the far background.
5

one another. (RT 2901, 2868, 2881-2882; 3361.) Petitioner was a Grape Street
member and Roberts was affiliated with the Swans. (RT 2868, 2901.) No gang
claims the area around the Compton metro station. (RT 3354-3355.)
To prove a gang-related scheme, the prosecution introduced evidence of a
verbal altercation on the train between petitioner and his brother and other
youths who supposedly claimed rival gang status. However, none of these other
youths were involved in the altercation at the station; nor was their particular
gang membership established.
Under the rubric of proving “intent,” the prosecution (over defense
objection) was allowed to introduce 187 pages of evidence of a previous, planned
gang shooting in which petitioner was involved as a decoy driver. (RT 303; RT
3421-3442; 3602-3664; 3664-3745, 3749-3757; 3757-3772.) According to the
prosecution the prior episode showed that petitioner's “intent is informed by
what he has done in the past, who he is” (RT 317) and that “they did it because:
because they're gangsters, ... [t]hat's all it is.” (RT 4543.)

6

REASONS FOR GRANTING WRIT
I
REVIEW SHOULD BE GRANTED TO DETERMINE WHETHER A
SENTENCE WITHIN THE PRESCRIBED STATUTORY RANGE BUT
INCONSISTENT WITH THE JURY'S VERDICT COMPLIES WITH THE
SIXTH AMENDMENT JURY TRIAL GUARANTEE OR THE DUE
PROCESS RIGHT TO THE PRESUMPTION OF INNOCENCE AND PROOF
BEYOND A REASONABLE DOUBT.
In Apprendi v. New Jersey (2000) 540 U.S. 466, this Court held that: “Other
than the fact of a prior conviction, any fact that increases the penalty for a crime
beyond the prescribed statutory maximum must be submitted to a jury, and
proved beyond a reasonable doubt.” (Id, at p. 490 [italics added].) Subsequently,
in Blakely v. Washington (2004) 542 U. S. 296, the Court made clear “that the
`statutory maximum' for Apprendi purposes is the maximum sentence a judge
may impose solely on the basis of the facts reflected in the jury verdict or
admitted by the defendant.” (Blakely, at p. 303; United States v. Booker (2005) 543
U.S. 220, 228.) Thus, “any fact that increases the penalty for a crime beyond the
prescribed statutory maximum must be submitted to a jury, and proved beyond
a reasonable doubt.” (Booker, supra, at p. 231; Apprendi, supra, at p. at 490.) For
these purposes it is irrelevant how the State labels the fact punished. (Ring v.
Arizona (2002) 536 U.S. 584, 602.) In general and subject to the requirement of a
jury finding, any term within the statutory maximum is allowed to the trial
judge's discretion in accordance with applicable state rules. (Oregon v. Ice (2009)
555 U. S. 160, 169-172 [state and common law judicial sentencing discretion].)
As indicated, the trial judge in this case sentenced petitioner to the
maximum statutory terms for voluntary manslaughter and for the related
7

weapons enhancement. (CT 608; RT 5723.) In allocuting the reason for his
sentence, the trial judge stated that he disagreed with the jury's lesser offense
verdict and that the crime was “clearly” second degree murder because
petitioner and Roberts had jointly sought to provoke the fatal confrontation. (RT
5721.) This petition therefore raises the question of whether in imposing any
term, even one within the statutory range, the sentencing judge can take into
consideration conduct of which defendants have been acquitted. 3
In affirming the judgement below, the Second District Court of Appeal
relied4 on People v. Towne (2008) 44 Cal.4th 63 which is taken to have held that, in
imposing a sentence the trial court “is not prohibited from considering evidence

3 The Court of Appeal initially stated that appellant had forfeited the Apprendi
issue but nevertheless exercised its prerogative under Pen. Code, §§ 1259,
1469 to reach the issue on its merits. However, there was no forfeiture. In
limine, the trial court granted petitioner's request that any objections would
be deemed to be made on both state and federal constitutional grounds. (CT
317; RT 28.) Although counsel did not mention “Apprendi” by name at
sentencing the substance of his objection (quoted infra, pg. 43) was that the
jury had aquitted Roberts and found against the charge of murder and the
gang enhancement. In this day and age, any objection on the ground that the
jury had not found some fact, necessarily implicates an Apprendi objection to
any reasonably informed attorney or judge. Under state law, where “it
appears that (1) the appellate claim is the kind that required no trial court
action to preserve it, or (2) the new arguments do not invoke facts or legal
standards different from those the trial court was asked to apply, but merely
assert that the trial court's act or omission, in addition to being wrong for
reasons actually presented to that court, had the legal consequence of
violating the Constitution[,] . . . defendant's new constitutional arguments are
not forfeited on appeal.” (People v. Gutierrez (2009) 45 Cal.4th 789, 809.)
4 Opinion, pg. 24
8

underlying charges of which a defendant has been acquitted.” (Id., at p. 71.)5 As
noted in Towne, supra, at page 87, federal circuit courts have uniformly held that a
sentencing court may consider conduct underlying an acquitted charge without
offending a defendant’s constitutional rights, so long as the conduct is proved by
a preponderance of the evidence and the imposed sentence falls within the
statutory range for the offense of conviction. 6
Nevertheless, this unanimous accord has been vigorously criticized, viz.:
Johnson, The Puzzling Persistence of Acquitted Conduct in Federal Sentencing, and
What Can be Done About It, 49 Suffolk Univ L Rev 1, 25 (2016) (quoting other

5 Appellant argued below that Towne was fatally distinguishable in that the fact
of Towne's recidivist history (id at p. 73) was a single aggravating factor that
existed totally apart from whatever other verdict-hostile inferences the trial
court may have espoused. Towne itself stated: “Because in the present case
other aggravating factors rendered defendant eligible for the upper term, the
judge's consideration of evidence of conduct underlying counts of which
defendant was acquitted, in selecting the sentence, did not implicate
defendant's constitutional rights to a jury trial or to proof beyond a reasonable
doubt.” (Id., at p. 87 [italics added].) Thus the wide-ranging constitutional
disquisition in Towne was obiter dicta in any event. (People v. Alvarez (2002) 27
Cal.4th 1161, 1176 [rule of case only co-extensive with the facts presented];
Central Green Co. v. United States (2001) 531 U.S. 425,431[dicta is anything not
essential to the ratio decidendi of the case]; Apprendi, supra, 489 fn. 14 [same].)
6 See, e.g., United States v. Gobbi, 471 F.3d 302, 314 (1st Cir. 2006), abrogated in part
on other grounds as stated in United States v. Nagell, 911 F.3d 23, 31 n. 8 (1st Cir.
2018); United States v. Vaughn, 430 F.3d 518, 525-27 (2d Cir. 2005); United States v.
Hayward, 177 F. App’x 214, 215 (3d Cir. 2006); United States v. Ashworth, 139 F.
App’x 525, 527 (4th Cir. 2007); United States v. Farias, 469 F.3d 393, 399-400 (5th
Cir. 2006); United States v. White, 551 F.3d 381, 383-84 (6th Cir. 2008); United States
v. Price, 418 F.3d 771, 787-88 (7th Cir. 2005); United States v. High Elk, 442 F.3d
622, 626 (8th Cir. 2006); United States v. Mercado, 474 F.3d 654, 655-56 (9th Cir.
2007); United States v. Magallanez, 408 F.3d 672, 684-85 (10th Cir. 2005); United
States v. Duncan, 400 F.3d 1297, 1304-05 (11th Cir. 2005); United States v. Dorcely,
454 F.3d 366, 371 (D.C. Cir. 2006)
9

sources for the proposition that “[t]he use of acquitted conduct has been
characterized as, among other things, ‘Kafka-esque, repugnant, uniquely
malevolent, and pernicious[,]’ ‘mak[ing] no sense as a matter of law or logic,’ and
. . . a ‘perver[sion] of our system of justice,’ as well as ‘bizarre’ and ‘reminiscent
of Alice in Wonderland’ ”); Ngov, Judicial Nullification of Juries: The Use of Acquitted
Conduct at Sentencing, 76 Tenn L Rev 235, 261 (2009) (“the jury is essentially
ignored when it disagrees with the prosecution. This outcome is nonsensical and
in contravention of the thrust of recent Supreme Court jurisprudence.”); Beutler, A
Look at the Use of Acquitted Conduct at Sentencing, 88 J Crim L & Criminology 809,
809 (1998) (observing that “[t]he use of acquitted conduct in sentencing raises
due process and double jeopardy concerns that deserved far more careful
analysis than they received” in Watts7 and noting “the fundamental differences
between uncharged and acquitted conduct which trigger these constitutional
concerns”. Judicial dissents have also been registered. “I strongly believe this
precedent is incorrect, and that sentence enhancements based on acquitted
conduct are unconstitutional under the Sixth Amendment, as well as the Due
Process Clause of the Fifth Amendment.” (United States v. Faust (11th Cir. 2006)
456 F.3d 1342, 1349, diss. Barkett, C.J.).] “[A]llowing courts at sentencing 'to
materially increase the length of imprisonment' based on conduct for which the
jury acquitted the defendant guts the role of the jury in preserving individual
liberty and preventing oppression by the government.” (United States v Brown,

7 United States v. Watts (1997) 519 U.S. 148.
10

(CA DC, 2018) 892 F3d 385, 408 (Kavanaugh, J., dissenting in part) [italics
added].)
In line with these criticisms, it is petitioner's contention that, irrespective of
whether a sentence is within the statutory maximum, allowing the sentencing
judge to factor into consideration conduct of which the defendant has been
acquitted completely nullifies the jury's constitutional function as “circuitbreaker.” (Blakely v. Washington, supra, 542 U.S. at pp. 306-307.)
Due to the happenstance factual posture in which cases arrive at this
Court, Apprendi contextualized the issue before it as one which focuses on what a
jury's verdict authorizes -- the answer being: a sentence within the legislated
statutory range. (Alleyne v. United States (2013) 570 U.S. 99, 112 [within minimum
to maxim statutory range].) This Court's subsequent Apprendi jurisprudence has
accepted this context as its premise. (Ibid. ) Under this approach, a jury's verdict
functions as the equivalent of a patent or warrant for judicial discretion, the only
limit being the statutorily authorized sentence range. However, the other
recognized function of the jury is not simply to authorize but to prohibit.
“{Apprendi's] animating principle is the preservation of the jury's historic role as
a bulwark between the State and the accused at the trial for an alleged offense.”
( Oregon v. Ice, supra, 555 U.S. , at p. 168; Apprendi, supra, at p. 477.) Here, the jury
acts as the People's tribune. The jury was not instituted simply to authorize but
“to guard against a spirit of oppression and tyranny on the part of rulers,” and
“as the great bulwark of [our] civil and political liberties.” (2 J. Story, Commentaries on the Constitution of the United States 540-541 (4th ed. 1873). As stated by
11

Justice Scalia writing for the majority in Blakely,
“The jury could not function as circuitbreaker in the State’s
machinery of justice if it were relegated to making a determination
that the defendant at some point did something wrong, a mere
preliminary to a judicial inquisition into the facts of the crime the
State actually seeks to punish.” (Id, supra, 452 U.S., at p. 307.)
But when a trial judge can consider conduct of which the jury has been
expressly acquitted, that is precisely the relegation that has occurred.

“The very

reason the Framers put a jury-trial guarantee in the Constitution is that they
were unwilling to trust government to mark out the role of the jury.” (Blakely,
supra, at p. 308; United States v. Booker, supra, 543 U.S., at pp. 238-239 [re. judicial
despotism].)

In this regard it is appropriate to note the Jacobite practice of

sequestering juries until they had produced the verdict desired by the Crown.
This practice was made infamous by Bushell's Case (1670) 124 Eng.Rep. 1006 [6
Howell's State Trials 999] in which Justice Howel refused to accept a displeasing
result and told the jury it would “not be dismissed till we have a verdict that the
court will accept.” When the jury ultimately returned with an acquittal, Howel
locked them up along with the defendant, William Penn, who later absconded to
America.8 On appeal, the jury was set free, Chief Justice Vaughn holding that
the jury must be independently and indisputably responsible for its verdict free from any
threats from the court. (See Estes v. Texas (1965) 381 U.S. 532, 558 [conc. Opn.

8 Penn's guilt was incontestable; there was no question that he was preaching
politically incorrect doctrines on a street corner, which constituted a clear and
present danger to the Established Church, the peace and dignity of the realm,
etc., etc.. Those were the “real facts” (cf Blakely, supra, at p. 424, diss.
O'Connor, J.) of the case.
12

Warren, C.J.; Sparf & Hansen v. United States (1895) 156 U.S. 51, 119-120 [diss.
Gray, J.].)
It is from Bushell's case that our concept of jury independence is derived.
"[I]n the reigns of the latter sovereigns of the Stuart family, a different rule
prevailed, that a jury in such case might be discharged for the purpose of having
better evidence against him at a future day; and this power was exercised for the
benefit of the crown only; but it is a doctrine so abhorrent to every principle of
safety and security that it ought not to receive the least countenance in the courts
of this country.” (Arizona v. Washington, (1978) 434 U.S. 497, 508, fn 23, [italics
added].) There is no meaningful distinction between discharging a jury in order
to receive “better” evidence at a later time and ignoring a jury's verdict entirely
in order, in the ensuing minute, to find “better” facts, always of course to the
benefit of the successor in interest to the Crown.
The flaw in Apprendi jurisprudence, as currently formulated, is that it
views the jury's verdict only in terms of its positive authorization; i.e., asking
what a jury's verdict allows. The answer, of course, is the “maximum” sentence
provided by statutory law. (See e.g. Cunningham v. California (2007) 549 U.S. 270,
at p. xxx.*) But the entire purpose of the jury system is not only to authorize but
also to prohibit. It does not serve as a “circuit breaker” (Blakely, supra, at p. 307) if
its verdict does not also “cut-off” or constrain judicial action. Under Towne and
the prevailing federal circuit court rule (fn. 6, ante), the trial judge need hardly
discharge or lock up the jury. It can more efficiently simply disregard the
constraint of the jury's verdict, as was done in this case.
13

It is hardly an answer to

say, as Towne did, that the effect of the jury verdict can be ignored because the
trial judge can find the facts by a lesser standard! (Towne, supra, at p. 87.) This
curious logic was anticipatorily criticized by Justice Scalia,
“In JUSTICE BREYER'S bureaucratic realm of perfect equity, by contrast,
the facts that determine the length of sentence to which the defendant is
exposed will be determined to exist (on a more-likely-than-not basis) by a
single employee of the State. (Apprendi, supra, at p. 498.)
In our system, case law does not evolve a priori and systematically.

Thus,

Apprendi contextualized the constitutional issue in light of the facts presented in
that case; i.e. a sentence in excess of the statutory maximum. That is fine as far
as it goes, but it only presented half the picture, the half that asks what a verdict
of guilty authorizes. The other half of what juries do -- surprisingly -- is to
acquit. It makes no sense to ask what an acquittal authorizes; the question that
must be asked is what an acquittal prohibits the state from doing. That is the
meaning of breaking a circuit.
The prevailing rule that a trial judge is allowed to ignore a verdict of
acquittal is based on United States v. Watts, supra, 519 U.S. 148, which held that a
verdict of acquittal does not determine any fact. (Id., at p. 157; United States v
Horne, 474 F3d 1004, 1006 (CA 7, 2007) [citing McMillan and Watts]; United States
v Dorcely, 372 US App DC 170, 175-177 [rejecting both due- process and Sixth
Amendment arguments, citing McMillan and Watts]; United States v Faust, supra,
456 F3d. at pp. 1347-1348 (CA 11, 2006) [finding no Sixth Amendment violation,
discussing Watts]; United States v Boney, (DC Cir. 1992) 977 F2d 624, 635 [due
process, collecting cases]; In re Coley (2012) 55 Cal.4th 524, 557 [same].)

14

Petitioner submits that Watts is a crumbling rock on which to base any Apprendi
jurisprudence. The substantive majority of this Court in Booker recognized this
stating, “The issue we confront today simply was not presented in Watts.”
(Booker, supra, at p. 240.) It was not presented because Watts concerned the
procedural guarantee of the Double Jeopardy Clause, whereas Apprendi issues
concern substantive requirements in sentencing.
The notion that a verdict of acquittal means nothing substantive was
unanimously rejected in Sealfon v. United States (1948) 332 U.S. 575, where this
Court held that Double Jeopardy operated to preclude re-litigation of an issue
“which was necessarily adjudicated in the former trial.” (Id., at p. 580 [italics
added]; see also Ashe v. Swenson (1970) 397 U.S. 436, 445-447 [applying rule].)
Although the second indictment in Sealfon had charged a nominally different of
offense, this Court found that “the basic facts in each trial were identical... [and]...
the core of the prosecutor's case was in each case the same.” (Id., at p. 580.) This
Court held that the prior verdict “operates to conclude those matters in issue
which have been determined by a previous verdict, even though the offenses be
different.” (Id., at p. 578.) Whether it does so as “res judicata” or “double
jeopardy” or sub nom “autrefois acquit,” the underlying legal fact is that a verdict
of acquittal has substantive effect on the use or relitigation of facts. It does not
mean 'go ahead try again, under a lesser standard of proof.' (See e.g. Towne,
supra, at p. 87.) Sealfon a completely undercuts Watts' premise. A verdict of
acquittal is not simply a procedural bar against retrial of the “same offense,” it
serves as a conclusive substantive determination of the factual issues adjudica15

ted. Cases relying on Watts for the proposition that a verdict of acquittal presents
no constraint on post-verdict judicial fact-finding are not persuasive. There was
simply no way that the Court could have considered the effect and consistency of
its holding with Apprendi jurisprudence.

9

Moreover, if the Watt's premise is applied to the facts of this case, then it
must be concluded that, as to petitioner, the jury's not true finding on the gang
enhancement left only a tabula raza with respect to any substantive issue of fact.
Not being found culpable of conduct which was gang-related, petitioner stood
innocent at bar of those charges. Since petitioner never waived a jury trial as to
that enhancement it was inconsistent (to put it mildly) with petitioner's Sixth
Amendment jury trial rights and with his Due Process right to proof beyond a
reasonable a doubt of all criminal charges. (In re Winship (1967) 397 U.S. 358, 362.)
The logic (if that is what it is) that because a jury failed to find beyond a
reasonable doubt the existence of a punishable fact, the trial judge can go ahead
and find that fact by under the lesser preponderance standard cannot be squared
with the constitutional starting points. (People v. Beck (2019)504 Mich. 605, 627
[939 N.W.2d 213] cert. denied 140 S. Ct. 1243 (2020) [“conduct that is protected by
the presumption of innocence may not be evaluated using the preponderance-ofthe-evidence standard without violating due process”]; see also State v. Marley,

9 “Watts, in particular, presented a very narrow question regarding the
interaction of the Guidelines with the Double Jeopardy Clause, and did not
even have the benefit of full briefing or oral argument. It is unsurprising that
we failed to consider fully the issues presented to us in these cases.” (Booker,
supra, at p. 240, fn 4.)
16

321 N.C. 415, 425, [364 S.E.2d 133] (1988) [“due process and fundamental fairness
precluded the trial court from aggravating defendant’s second degree murder
sentence with the single element—premeditation and deliberation—which, in
this case, distinguished first degree murder after the jury had acquitted
defendant of first degree murder"].)
McMillan v. Pennsylvania (1986) 477 U.S. 79 has fared no better. In Alleyne
v. United States, supra, 570 U.S. 99, this Court overruled Harris v United States
(2002) 536 U.S. 545, which had held held that judicial fact-finding that increases
the mandatory minimum sentence for a crime is permissible under the Sixth
Amendment. (Alleyne, at pp. 103, 107.) Noting that “the logic of Apprendi
prompted questions about the continuing vitality, if not validity, of McMillan’s
holding that facts found to increase the mandatory minimum sentence are
sentencing factors and not elements of the crime” (Alleyne, at p. 106), this Court
ruled that “Apprendi’s definition of “elements” necessarily includes not only facts
that increase the ceiling, but also those that increase the floor.” (Alleyne, at p. 108.)
Lastly, the syllogism that a judge may disregard the jury's findings because
it only needs to find facts by a preponderance of the evidence contravenes the
entire purpose of the institution of the jury. The jury was not instituted to
preserve proof beyond a reasonable doubt but “as the great bulwark of [our]
civil and political liberties.” (2 J. Story, Commentaries, supra, 540-541 (4th ed.
1873).) It is the institution of a jury trial that, in and of itself, constitutes the
safeguard against judicial arbitrariness or subservience to the state. The
requirement of proof beyond a reasonable doubt represents an additional
17

safeguard by requiring the executive branch to come up with something more
than reasonable sounding suspicions. But it simply does not follow that because
juries must find the substantive facts of a crime beyond a reasonable doubt, the
judge is free to make contrary findings on a preponderance standard. Although
this logic would have delighted the Stuarts it would have baffled the Founders..
Thus, petitioner submits that Apprendi's “statutory maximum” rule needs
to reassessed -- not in the sense of being wrong but to ask whether it is
constitutionally sufficient to preserve the role of the jury as “circuitbreaker.”
The facts of this case illustrate how the current rule allows judge to
effectively nullify jury verdicts thereby reducing the jury to an elaborate but
empty formality. In the present case, the trial judge's discretion was exercised in
accord with applicable law as interpreted by Towne, supra, 44 Cal.4th 63.
Following this Court's ruling in Cunningham v. California, supra, 549 U.S. 270,
California's Legislature amended its sentencing provisions so as to remove the
presumptive applicability of a specified mid-term sentence. Thenceforth,
“[w]hen a judgment of imprisonment is to be imposed and the statute specifies
three possible terms, the choice of the appropriate term shall rest within the
sound discretion of the court.” (Pen. Code, § 1170, subd. (b).) The trial court
must individualize its sentence choice to the particular circumstances of the case;
and, as directed by the Legislature, the Judicial Council has promulgated rules to
guide these choices. (People v. Wright (1982) 30 Cal.3d 705, 709-710; Pen. Code, §§
1170, subd. (a)(2), 1170.3; Cal. of Rules of Court, rules 4.401-4.423.) “The statutes
and sentencing rules generally require the court to state `reasons' for its
18

discretionary choices on the record at the time of sentencing People v.
Minder (1996) 46 Cal.App.4th 1784, 1791.) “In exercising his or her discretion in
selecting one of the three authorized terms of imprisonment referred to in section
1170(b), the sentencing judge may consider circumstances in aggravation or
mitigation, and any other factor reasonably related to the sentencing decision.
(C.R.C., rule 4.420, subd.(b).) However, under California law, any single
aggravating factor by itself is sufficient to justify an upper term, regardless of
countervailing mitigating circumstances. (People v. Osband (1996) 13 Cal.4th 622,
728; Towne, supra, at p. 75.)
At sentencing, the prosecution urged the imposition of the upper term on
the charge and on the surviving gun enhancement on the grounds that: (1) the
crime involved great violence, callousness and lack of remorse; (2) the victim was
particularly vulnerable; (3) “[t]he the manner in which the crime was carried out
indicated planning and sophistication in that defendant and Roberts 'sought to
provoke gang members on the train' and ... when 'individuals' at the station
responded to petitioner and Robert's 'challenges,' defendant 'kicked off the
safety' of his weapon; and, (4) defendant had engaged in conduct which was a
danger to society as indicated by (1)-(3) above and in that “he also participated
in series of shootings in August 2016.” (CT 581-582.)
Defense counsel filed a sentencing memorandum specifically disputing
each and every one of the prosecution's argued circumstances in aggravation.
(CT 584, 587-588.) The memorandum asserted that petitioner had only trafficrelated incidents on his adult record and that petitioner's prior performance on
19

probation, mandatory had been satisfactory. (CT 588.) Counsel disputed that the
victim had been “vulnerable” and argued that the video showed that “defendant
had been viciously attacked and knocked to the ground by another rival gang
member .... [and] only pulled his weapon and fired in self defense.” (CT 587.) In
asking the court to strike the firearm enhancement and impose the low term, trial
counsel concluded: “Clearly, this was a spur of the moment incident that
occurred because of the provocation of the decedent and his associates the jury so
found. The jury necessarily then found that there was no planning sophistication or
professionalism.” (CT 587-588 [italics added].)
The trial judge sentenced petitioner to the upper term on both the
enhancement and underlying charge. (CT 608; RT 5723.) After indicating that it
agreed with most of what the prosecution had argued in its sentencing memorandum,10 the court stated that “the factors in aggravation greatly outweigh the
factors in mitigation, in that Mr. Brown was unarmed, that he was not the cause
of, but his death was the effect of yourself and your actions and your brother's
actions.” (RT 5723 [italics added].) The court continued, “I disagree with the jury's
verdict also. I think that, clearly, this was a murder. The way I saw it, it was a
murder in the second degree. All right. With a gun used. .... I listened to this
evidence. I listened to the People's arguments. I thought it was very clear that
you [petitioner] should have been convicted of murder. All right. And I can't do

10 “I do agree with the People . . . . I may not agree 100 percent with what the
People said, as far as where I think it does with this, but I do think they are
correct.” (RT 5721.)
20

anything about that. That's what the jury saw, and I respect that, and we all have
to accept that.” (RT 5721-5723.)
But the court did not respect that. It totally disregarded the jury's verdict
explicitly stating that, in its own opinion, petitioner was guilty of murder. As if
this were not explicit enough, the trial judge specified, “I do agree with the
People. Mr. Lewis, you put yourself in this position. I think that the evidence was
absolutely overwhelming that you and your brother went there, and you caused
this to happen. This was not a situation where you were just minding your own
business and stepped off the train and something happened. It was you who
intervened. It was you who caused this. And when I say you, I'm talking about
you and your brother.” (RT 5721 [italics added].) These court findings were
completely incompatible with the jury's verdicts as to each defendant.
As previously indicated (fn. 5 , ante), in Towne, supra, 44 Cal.4th 63, apart
from the trial judge's stated disagreement with the jury's verdict, there had
existed one independently aggravating factor to justify an upper term sentence.
(Id at p. 73.) In the present case no such independent aggravating factor existed.
The prosecution's so-called aggravating factors were mostly redundant
characterizations of the nature of the crime. However, those factors included an
explicit rejection of the jury's acquittal of Roberts and its not true finding on the
gang enhancement (factor #3). The one factor the trial judge evidently did not
agree with was the prosecution's allegation of uncharged “prior shootings”

21

which had not even been tried at the time of sentencing. 11 Thus, this case
presents the stark situation where a trial judge simply nullifies a verdict that it
found “unacceptable” and substituted his own truth of the matter as the basis for
sentencing. Petitioner submits that such a procedure reduces the jury to a
formalistic husk and is incompatible with the Sixth Amendment.
CONCLUSION
For the foregoing reasons, petitioner therefore respectfully requests that
his petition for certiorari be granted.
Word Count Certification
The undersigned counsel certifies under penalty of perjury that the word
count for this brief is: 5, 875 words, excluding cover, tables and appendices.
Dated: 22 September 2021
Respectfully submitted

Kieran D. C. Manjarrez
Attorney for Petitioner

11 Assuming the trial judge had relied on that aggravating factor, the case would
involve a situation where a lesser verdict and acquittal served as a “mere preliminary” (Blakely, supra, at p. 307) for a bench trial under a preponderance
standard on charges which the court had earlier refused to consolidate for trial
22

APPENDIX A

24

Filed 4/15/21 P. v. Lewis CA2/5

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FIVE
THE PEOPLE,

B302108

Plaintiff and
Respondent,

(Los Angeles County
Super. Ct. No. TA144866)

v.
ARTHUR LEE LEWIS,
Defendant and
Appellant.
APPEAL from a judgment of the Superior Court of Los
Angeles County, Patrick Connolly, Judge. Affirmed.
Kieran D. C. Manjarrez, under appointment by the
Court of Appeal, for Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters,
Chief Assistant Attorney General, Susan Sullivan Pithey,
Senior Assistant Attorney General, Michael R. Johnsen,

Supervising Deputy Attorney General, David W. Williams,
Deputy Attorney General, for Plaintiff and Respondent.
__________________________
Defendant and appellant Arthur Lee Lewis and codefendant Eric Roberts were charged with the murder of
Trevon Brown. (Pen. Code, § 187, subd. (a).)1 It was alleged
that defendants personally used and/or discharged a firearm
causing great bodily injury or death (§ 12022.53, subds. (b),
(c), (d) & (e)(1)), in association with, or for the benefit of, a
criminal street gang (§ 186.22, subds. (b)(1) & (b)(5)).
At the close of the prosecution’s case-in-chief, the
personal use of a weapon charge was stricken as to Roberts.
The jury acquitted Roberts of the murder, and convicted
Lewis of the lesser offense of voluntary manslaughter.
(§ 192.) It found true the weapons allegation against Lewis
(§ 12022.5, subd. (a)), but found the gang allegation not true.
The trial court imposed the high term of 11 years for
voluntary manslaughter and the high term of 10 years for
the weapon enhancement, sentencing Lewis to a total of 21
years in prison.
On appeal, Lewis contends that the trial court (1)
abused its discretion by admitting evidence of a past gang
crimes, in violation of his constitutional right to due process,
and (2) erred when it considered evidence contrary to the

1

All further statutory references are to the Penal Code
unless otherwise indicated.

2

jury’s “verdict of acquittal” when imposing the high terms at
sentencing, in violation of his constitutional rights.
We affirm the trial court’s judgment.
FACTS
On December 3, 2017, brothers Lewis and Roberts rode
the light rail from Long Beach to Compton. When the
brothers got off the train, they asked several people which
gangs they were from. A woman nearby noticed that they
appeared excited, and she heard one of them say “I got it on
me.”
One of the persons Lewis and Roberts approached was
Joshua Moton. In a recorded interview with officers that
was played at trial for the jury,2 Moton stated the following:
Lewis asked Moton where he was “from.” Roberts told
Moton he was a Swan Blood. Lewis said he was from “Grape
Street,” and warned, “Just know I’m not lacking.” Moton
explained this meant that Lewis was carrying a gun. The
brothers “introduce theirself to everybody [at the station].
So they go around to everybody else banging on everybody
else.” Brown walked up to them, and Lewis asked Brown
where he was from. Brown said: “I don’t bang, but . . . we
can fight if you got a problem with me.” Roberts said he was
from the Swans gang. Someone hit Roberts and a fight
broke out between about four men, including Lewis, Brown,
2

At trial, Moton denied much of what he told officers
in the interview.

3

and Roberts. Lewis was getting beaten and was balled up on
the ground in the corner. He jumped up and whipped out a
gun. Moton yelled that Lewis had a gun, but “it was too
late.” Lewis shot Brown, who was unarmed. Brown ran a
few steps, and then collapsed, struggling to breathe. He was
subsequently taken to a hospital, where he died from a
gunshot wound to the chest.
A video recording taken from the Compton station
corroborated Moton’s statement, but did not depict Lewis
shooting Brown. Lewis was out of camera range when he
fired the fatal shot.
After the killing, several of Lewis’s phone calls were
recorded as part of an ongoing wiretap investigation. Lewis
had the following conversation with TK Don, a fellow Grape
Street gang member:
“Lewis: I probably finna, I probably finna get on the
run all type of shit.
“[TK Don]: What happened?
“Lewis: I just had to do a [guy] at the train station.
“[TK Don]: (Unintelligible) on Beezy! [3]
“Lewis: On Beezy!
“[TK Don]: What happened?
[¶] . . . [¶]
“Lewis: Man on Young, first we on the train coming
from Long Beach, some [derogatory name for rival gang
3

On Beezy, on Geo, on Young, and on Grape are used
by Grape Street gang members to swear to the truth of what
they have said.

4

members] get on the train, about three of them. We mark
them out, on Geo, they didn’t want to do nothing. . . .
[¶] . . . [¶]
“. . . Man, on Young look, so look, a [guy] get off the
train, on Beez, now I’m telling somebody. I’m talking to my
Mamacita right there. (unintelligible) I got it on me, woopty
woo. [The guy] said something like ‘Oh I got it on me too.’
(Unintelligible) said ‘What, [man]?’ On Geo, [man], what
you gonna, On Young, so I got on him, ‘What you wanna do?’
On Geo the [guy] said, said something like, [‘]Well I ain’t
never lacking,’ like straight, tried to fake shuffle, I half way
whipped it out, and it, on Beezy, now my brother, now the
[guy] say something, something, something, PJ’s. Looked at
my brother, he said ‘Swan Deuce.’ Yo, I instantly I kicked it
off safety, on Beezy. Man this lil [jerk], another [guy]
walked up talking about Four-Six Neighbo– I’m like Grape
Street or nothin. Lil [guy] walked up like, ‘Four-Six
Neighborhood.’ Man, on Beez, next thing you know, [guys]
come, they pull, they pull to us. On Beezy like, one [guy]
said something, next thing you know we coming from
everywhere. Man they, man– ten, twenty, ten, fifteen [guys]
came, came out the woodwork, on Young. On Geo, one [guy]
talking about Four-Six Neighborhoods. My brother’s like,
Swans woot woot. On Geo, then next thing you know, on
Beez, they tried to came from everywhere. Man, a [guy] ran
up from behind me like, like he stole on Beez some soft
(Unintelligible) it ain’t do no– I ain’t, I ain’t budge. Soon as I
like turn around, on Beezy, my brother socked a [guy], the

5

[guy] go down. On Geo, now I, I see a [guy] running up, on
Beez, I whipped on it. Bow! On Young, it jammed and
everything. The [guy] went ‘Oh!’ On Beezy we got out of
there at the Compton station.”
“Lewis: Beezy, but I know the [guy] got hit. . . . I was
right up on the [guy], on Young. Beezy, ‘Oh!’ On Young,
everybody started running everywhere, scattering, getting
outta there. On Beezy, we started getting outta there.
[¶] . . . [¶]
“Then we started hearing the sirens and all that
coming. On Geo, we got picked up, there was police
everywhere. We were laying down.”
Lewis had another conversation in which he discussed
the victim’s identity.
“[Caller:] Man whe– . . . man, where this [guy] was
from?
“[Lewis:] Man, Flea Jay, then there was [guys] from
everywhere.[4] Flea Jay, Fo’ Six Neighborhood, man. I don’t
know. [Guys] started comin’ out the woodwork. On Young.”
In another call with TK Don, Lewis learned the
identity of the man he shot:
“[TK Don:] On Young, I see who the [guy] is.
“[Lewis:] Yeah?
[¶] . . . [¶]
“[TK Don:] On Young. He from 4–6 Neighborhood. On
Beezy.
4

“Flea Jay” is a derogatory term used by Grape Street
members to refer to the “PJ” Watts gang.

6

“[Lewis:] Yeah?
[¶] . . . [¶]
“[TK Don:] Hold on. I’m finna. Go to, go . . . You can
get on, you can get on social media?
“[Lewis:] Yep.
“[TK Don:] It’s Travon Brown.
“[Lewis:] Huh?
“[TK Don:] Tra–, a [guy], uh, a [guy] with some little
dreads.
[¶] . . . [¶]
“[TK Don:] Know what I’m sayin’. The weird, the lil’
fat [guy], I just seen the fat [guy] post somethin’ like, ‘RIP,
bro. I love you, fool. It was too soon to go.’”
DISCUSSION
Admission of Prior Gang-Related Crimes Evidence
Lewis contends that the trial court erred in admitting
evidence of prior gang crimes because the evidence was not
relevant to intent, and the uncharged crimes were not
sufficiently similar to the charged crime. He further argues
that the error rose to the level of a due process violation.
Proceedings
Prior to trial, the prosecution moved to consolidate this
matter with Los Angeles County Superior Court case No.

7

TA145980, another murder case in which Lewis was charged
(the 76 Station case).
The trial court denied the motion, reasoning that not
all evidence would be cross-admissible, the crimes were not
part of the same transaction, and consolidation would be
time-consuming. The trial court further explained that the
other six defendants charged in the 76 Station case could
suffer undue prejudice from consolidation, as the jury could
be confused by the evidence with respect to those
defendants.
The prosecution subsequently filed a motion in limine
to admit evidence of Lewis’s participation in the 76 Station
case, for the purposes of proving intent, premeditation and
deliberation, motive, and lack of accident or self-defense in
the present case under Evidence Code section 1101,
subdivision (b). The prosecution proffered that, in August of
2016, Lewis was part of a three-car caravan of Grape Street
gang members who entered rival gang territory and shot and
killed a man at a 76 gas station. Lewis was not the shooter,
but drove the car that acted as a decoy vehicle for the vehicle
containing the shooter.
Lewis filed a written opposition to the motion. He
conceded that, in the instant case, he intended to kill Brown,
but argued that he acted in self-defense. He contended that
the uncharged crime was inadmissible to show intent
because “there has been no finding that [he] in fact had the
intent to kill when he participated in the prior crime”; and
the incident was not sufficiently similar to the charged crime

8

to be probative of intent. Lewis reasoned that, because the
crimes were not sufficiently similar to establish intent, the
2016 incident could not be admissible under Evidence Code
section 1101, subdivision (b) for any other purpose, as intent
requires the least degree of similarity for admission. Lewis
argued he was not claiming accident or mistake, so the
incident was not relevant for the purpose of rebutting those
defenses. He asserted that the incident did not provide a
motive for the instant crime and was therefore not probative
for that purpose. Finally, Lewis contended that evidence of
the 76 Station shooting should be excluded under Evidence
Code section 352, because the evidence would require
considerable time to present, and “if the evidence shows that
this crime was similar to the alleged previous one, then
evidence of the previous crime is superfluous.”
At a hearing on the matter, the prosecution elaborated
on the details of the 76 Station shooting. The prosecutor
explained that two of Lewis’s fellow gang members fell out of
good standing with the Grape Street gang, and, as a result, a
shot caller in the gang ordered them to redeem their
reputations by going out “trooping.” The shot caller told the
men, “‘you’ve got to shoot.’” He asked for other volunteers,
and several other gang members, including Lewis, agreed to
participate in the shooting. The men split up into three cars,
which stayed in constant communication via cell phones in
speaker mode. The shot caller was in one vehicle, the
shooter was in a second vehicle, and Lewis drove the third
vehicle, which served as a decoy.

9

The cars drove to the area near the Howard Hughes
Center, where the shot caller identified a target. The
shooter stepped out of the car and fired into another vehicle
at the individual who had been targeted. The intended
victim was not killed and drove away.
Afterwards, the gang members re-grouped. The shot
caller was angry that the target survived the shooting and
ordered a second shooting about an hour later in Nickerson
Gardens. There, the shooter shot into a crowd of people, but
no one was hit.
The gang members again re-grouped, this time in the
Watts area. The shot caller was very upset that the shooter
had missed again and ordered a third hit. The shot caller
pointed out another target at a 76 gas station. The shooter’s
car pulled into the gas station next to a parked car, and the
shooter shot and killed the individual who had been
targeted.
The prosecutor proposed to introduce the evidence
through one of the gang members who participated in the 76
Station murder, with possible testimony by a sheriff’s deputy
and a police officer.
Defense counsel argued that the instant case against
Lewis was weak and would be unfairly bolstered by the
stronger 76 Station case. Counsel asserted that intent had
not been proven in the 76 Station case which had not yet
been tried, and was “not necessarily the issue” in the present
case.

10

The trial court disagreed, noting that the defense’s
position was “the intent is there, but mitigating it. But
intent, regardless, is going to be an issue in this case.”
Defense counsel responded that the 76 Station case
was too dissimilar to the present case to be admissible.
Counsel argued that the prosecution was “trying to use the
other case to prove intent on this case.”
The prosecutor countered, “[I]ntent remains an issue.
But, also, we don’t agree. We agree that there was intent at
the moment of the shooting. But the People’s argument is
that there was intent even before they got on the train. And
that intent is informed by what [Lewis] has done in the
past.” The prosecutor continued, “Now, 1101(b) doesn’t
mention premeditation and deliberation. But whether you
want to call it intent or deal with them as one of the other
issues, those are all things that are elements that need to be
proven. And, obviously, having been implicated and
involved in another fatal shooting does show that you have
had reason to think about what these guns do.”
The prosecutor noted that the audio and video evidence
in the instant case was clear, “[s]o the real question is what
was in Arthur Lewis’ and to a different extent Eric Roberts’
minds? And when Arthur Lewis goes out that day with a
gun in his waistband and starts creating these issues, does
he -- what is his view towards how this gang life operates?
[¶] . . . [¶] And what you have on both occasions is going out
and finding someone that you perceive to be a rival and
shooting them.”

11

The prosecutor explained, “[T]he important part isn’t
his criminal liability in [the 76 Station] case. The important
part is he’s been involved in finding random people who are
perceived to be rivals, in rival territory, and watching as
they are shot and killed -- or shot at and one is killed, simply
for that reason. And that he’s had the chance to premeditate
and deliberate on what he would do with this gun, under
those circumstances, and then he did it. [¶] So the idea that
this quarrel arose out of no where [sic], or for the jury to
think to themselves, well, maybe he never thought about
what it’s like, or what he would do if it gets this far.”
The trial court granted the prosecution’s motion,
stating: “[In this case,] [Lewis] actually went into an area
where he was going to be exposed, and was exposed, because
somebody came up from behind him and . . . [punched]
him. . . . And they put themselves in a position where if not
armed are going to, at the very least, be beaten.
[¶] . . . [¶]
“But what is the reason for going into that territory,
standing behind his brother? That’s going to be for the jury
to make that decision. And whether or not that shot was
fired in self defense is going to be for them. But the intent is
going to be at issue here. And the Court is going to allow the
People to put on the evidence of the [76 Station] murder, but
it is going to be minimal. We are not going to be getting into
a second trial.”
The prosecution called Deanthony Bradford, who
testified consistently with the prosecutor’s proffer at the

12

hearing. Bradford explained that the goal was to kill a rival
gang member from the Bounty Hunters. The caravan of cars
assembled outside of Jordan Downs in an area that was free
of cameras. Bradford identified the man who was to be
killed; he believed that the man was a Bounty Hunter
because he was a black man in Bounty Hunter territory.
After the shooting “it played out like a puzzle”—the cars
drove away with the shooter in the lead and the decoy
vehicle last. Police officers pulled over the decoy vehicle that
Lewis was driving, just as the shot caller had planned, and
the other cars drove away.
Officer Richard Delgado and Deputy Steven Blagg also
testified regarding the murder at the 76 station.
The court instructed the jury under CALCRIM No. 375,
explaining that it could use the evidence of the killing at the
76 station “only if the People have proved by a
preponderance of the evidence that the defendant, in fact,
committed the uncharged offenses[,]” and could consider the
evidence only “for the limited purpose of deciding whether,
first, the defendant had a motive to commit the offense
alleged in this case; second, the defendant knew the nature
and consequences of his actions when he allegedly acted in
this case; third, the defendant’s alleged actions were not the
result of mistake or accident; or, four, the defendant had the
required mental state during the commission of the charged
offense.”

13

Legal Principles
“Only relevant evidence is admissible . . . .” (People v.
Harris (2005) 37 Cal.4th 310, 337 (Harris); Evid. Code,
§§ 210, 350.) Evidence is relevant if it “‘tends “logically,
naturally, and by reasonable inference” to establish material
facts such as identity, intent, or motive.’ [Citation.]”
(Harris, supra, at p. 337.) Trial courts have broad discretion
in determining whether evidence is relevant. (Ibid.) We
review a trial court’s ruling on the admissibility of evidence
for an abuse of that discretion. (People v. Waidla (2000) 22
Cal.4th 690, 717.)
“[E]vidence that a person committed a crime, civil
wrong, or other act” is admissible when it is relevant to
prove some fact such as “motive, opportunity, intent,
preparation, plan, knowledge, identity, [or] absence of
mistake or accident” (Evid. Code, § 1101, subd. (b)), “‘or to
overcome any material matter sought to be proved by the
defense.’ [Citation.]” (People v. Alcala (1984) 36 Cal.3d 604,
631, superseded by statute on other grounds as stated in
People v. Falsetta (1999) 21 Cal.4th 903, 911). Even when
evidence is relevant under Evidence Code section 1101,
subdivision (b), however, it must be excluded under Evidence
Code section 352 if its prejudicial effect substantially
outweighs its probative value. (People v. Ewoldt (1994) 7
Cal.4th 380, 404 (Ewoldt).)
Evidence Code section 352 is intended to prevent
undue prejudice, that is “‘“evidence which uniquely tends to

14

evoke an emotional bias against the defendant as an
individual and which has very little effect on the issues,”’ not
the prejudice ‘that naturally flows from relevant, highly
probative evidence.’ [Citations.]” (People v. Padilla (1995)
11 Cal.4th 891, 925, overruled on other grounds by People v.
Hill (1998) 17 Cal.4th 800.) The courts recognize that gangrelated evidence may have a “‘highly inflammatory’” impact.
(People v. Samaniego (2009) 172 Cal.App.4th 1148, 1167.)
However, “evidence of gang membership is often relevant to,
and admissible regarding, the charged offense. Evidence of
the defendant’s gang affiliation . . . can help prove identity,
motive, modus operandi, specific intent, means of applying
force or fear, or other issues pertinent to guilt of the charged
crime.” (People v. Hernandez (2004) 33 Cal.4th 1040, 1049.)
This court will not disturb a trial court’s exercise of
discretion under Evidence Code section 352 absent a
showing that the trial court abused its discretion. (People v.
Branch (2001) 91 Cal.App.4th 274, 281–282.) Under
Evidence Code section 352, “[t]he least degree of similarity
(between the uncharged act and the charged offense) is
required in order to prove intent. [Citation.] ‘[T]he
recurrence of a similar result . . . tends (increasingly with
each instance) to negative accident or inadvertence or selfdefense or good faith or other innocent mental state, and
tends to establish (provisionally, at least, though not
certainly) the presence of the normal, i.e., criminal, intent
accompanying such an act . . . .’ [Citation.] In order to be
admissible to prove intent, the uncharged misconduct must

15

be sufficiently similar to support the inference that the
defendant ‘“probably harbor[ed] the same intent in each
instance.” [Citations.]’ [Citation.]” (Ewoldt, supra, 7
Cal.4th at p. 402.)
Analysis
The People contend that Lewis forfeited his challenges
to the other crimes evidence by failing to object during trial.
As a general rule, even “‘when an in limine ruling that
evidence is admissible has been made, the party seeking
exclusion must object at such time as the evidence is actually
offered to preserve the issue for appeal.’ [Citations.]”
(People v. Morris (1991) 53 Cal.3d 152, 189 (Morris),
disapproved on another ground in People v. Stansbury (1995)
9 Cal.4th 824, 830, fn. 1.) There is an exception, however,
and an in limine motion will preserve the issue for appeal, if
the motion satisfies the requirements of Evidence Code
section 353, subdivision (a).5 (Morris, supra, at p. 190.) A
motion in limine meets the requirements of Evidence Code
section 353, subdivision (a), only when: “(1) a specific legal
ground for exclusion is advanced and subsequently raised on
5

Evidence Code section 353 provides in part: “A
verdict or finding shall not be set aside, nor shall the
judgment or decision based thereon be reversed, by reason of
the erroneous admission of evidence unless: [¶] (a) There
appears of record an objection to or a motion to exclude or to
strike the evidence that was timely made and so stated as to
make clear the specific ground of the objection or motion.”

16

appeal; (2) the motion is directed to a particular, identifiable
body of evidence; and (3) the motion is made at a time before
or during trial when the trial judge can determine the
evidentiary question in its appropriate context.” (Morris,
supra, at p. 190.) In this case, Lewis objected to specific
prior crimes evidence on the basis that it was not probative
of intent and the prior crimes were not sufficiently similar to
the charged crime. The evidence discussed at the hearing on
the motion in limine did not vary from the evidence
presented at trial in a manner that would require us to
review it in a different context than the trial court did. We
are satisfied that the objection met the requirements of
Evidence Code section 353, and preserved Lewis’s challenge
on appeal. Although Lewis preserved the issue, however, we
agree with the People that it is without merit. The
uncharged crimes were relevant and sufficiently similar to
the charged crimes to be admissible to establish intent under
section 1101, subdivision (b).
We reject Lewis’s argument that the trial court erred
because it confused intent and common design or plan.
Lewis conflates these separate bases for admission of
evidence under section 1101, subdivision (b). Evidence is
relevant to common plan if it tends to establish an
overarching scheme; intent refers to the defendant’s mental
state. The evidence of the 76 Station murder was not
admitted for the purpose of demonstrating an overarching
scheme or connection between the two offenses, and indeed,
the jury did not consider it to be, as it found the allegation

17

that the murder was committed for the benefit of the Grape
Street gang not true. The evidence was offered to illuminate
Lewis’s thought process at the time of the shooting. The fact
that Lewis had volunteered to participate in the murder of a
(perceived) rival outside of Grape Street territory was
evidence from which the jury could draw the inference that
on the date of the instant crime he had also voluntarily gone
into an area where he was likely to encounter rival gang
members, and intended to kill one. The evidence tended to
negate Lewis’s argument that he reacted in self-defense, and
support the prosecution’s theory that he acted with
premeditation and deliberation.
We also reject Lewis’s contention that because he was
not the shooter in the 76 Station case, the evidence of that
shooting was not probative of his intent in the present case.
Lewis interprets precedent to require that the uncharged
acts and charged acts be identical. There is no such
requirement. (Ewoldt, supra, 7 Cal.4th at p. 402 [“[t]he least
degree of similarity (between the uncharged act and the
charged offense) is required in order to prove intent”].) Our
Supreme Court has held that “a fact finder properly may
consider admissible ‘other crimes’ evidence to prove intent,
so long as (1) the evidence is sufficient to sustain a finding
that the defendant committed both sets of crimes [citations],
and further (2) the threshold standard articulated in Ewoldt
can be satisfied—that is, ‘the factual similarities among the
charges tend to demonstrate that in each instance the

18

perpetrator harbored’ the requisite intent. [Citations.]”
(People v. Soper (2009) 45 Cal.4th 759, 778.)
Lewis’s own actions in the 76 Station case evidenced
his intent. He volunteered to facilitate the deadly 76 Station
shooting, and his culpability arose from that participation.
The shooting was carefully orchestrated—cars were loaded
in areas without cameras and three vehicles were used,
including Lewis’s decoy vehicle which was intended to draw
police away from the shooter’s vehicle and the murder
weapon. The jury in the instant case could have found, by a
preponderance of the evidence, that Lewis was a direct aider
and abettor of the shooter in the 76 Station case, and as
such, that he harbored the intent to kill, or even committed
premeditated and deliberate murder.
The incidents bore significant similarities. In the 76
Station case, Lewis was part of an armed caravan that
entered rival gang territory to kill a rival gang member. In
the instant case, Lewis entered an area where he was likely
to meet rival gang members carrying a loaded gun,
confronted numerous persons to ascertain whether they
were affiliated with rival gangs, and shot a man after he
encountered people who claimed gangs other than Grape
Street. These similarities are great enough “to support the
inference that [Lewis] ‘“probably harbor[ed] the same intent
in each instance.” [Citations.]’ [Citation.]” (Ewoldt, supra,
7 Cal.4th at p. 402.)
Finally, Lewis argues that, even if the evidence of the
76 Station murder was relevant to intent, he did not dispute

19

that he intended to kill Brown, such that the evidence
relating to intent was both irrelevant and unduly prejudicial.
Intent was the primary issue in this case. Lewis argued that
he acted in self-defense, which, if reasonable, would have
absolved him of the crime. In contrast, the prosecution
charged him with first degree murder, alleging that the
crime was premeditated and deliberate. The evidence of the
76 Station murder was relevant, as we have discussed, but
not unduly prejudicial. In that case, Lewis played a less
central role. The jury watched the video of Lewis shooting
Brown. In comparison, the fact that he drove the decoy
vehicle in the 76 Station case was highly unlikely to unfairly
inflame the jurors.
Even if Lewis’s intent or mental state had been
uncontested, however, our Supreme Court “rejected this
argument in [People v.] Scott [(2011)] 52 Cal.4th 452 . . . .
Defendants pleaded not guilty, placing in issue all the
elements of murder.” (People v. Bryant, Smith and Wheeler
(2014) 60 Cal.4th 335, 407.) Having pleaded not guilty to
murder, Lewis necessarily placed intent in contention. The
trial court did not abuse its discretion by admitting the
uncharged crimes evidence, nor did it violate Lewis’s right to
due process by admitting the prior crimes evidence. (People
v. Hovarter (2008) 44 Cal.4th 983, 1010 [“[t]he ‘routine
application of state evidentiary law does not implicate [a]
defendant’s constitutional rights’”].)

20

Imposition of the High Term for Manslaughter and the
Weapons Enhancement
Prior to imposing the high term on both the voluntary
manslaughter conviction and weapons enhancement, the
trial court stated, “I thought it was very clear that you
should have been convicted of murder. All right. And I can’t
do anything about that. That’s what the jury saw, and I
respect that, and we all have to accept that.
“But you are the one who went with your brother. You
engaged, at least through part of that day, in wanting to let
people know who you were and what you stood for.
“All right. You were the one who was armed with that
handgun. There was no reason for you to do that.
“I shouldn’t say that. There’s no good reason. There is
no legitimate reason for you to have done that.
“And in this situation, whether or not it was Travon or
whomever that was getting the best of you and your brother,
. . . you decided to up the ante. . . . You stepped it up and
you decided that you were going to utilize what you had to
make sure that you were going to be victorious. I don’t think
that you cared whether or not you were killing somebody at
that time.”
The court addressed the families of both Lewis and
Brown, and then continued, “[s]o with that, in this matter I
think that the factors in aggravation greatly outweigh the
factors in mitigation, in that Mr. Brown was unarmed, that

21

he was not the cause of, but his death was the effect of
yourself and your actions and your brother’s actions.”
The trial court then imposed the high term of 11 years
for voluntary manslaughter and the high term of 10 years
for the firearm enhancement. Lewis did not object.
Analysis
Lewis contends that the trial court erred by making
findings that were contrary the jury’s “verdict of acquittal,”
in violation of his Sixth Amendment right to a trial by jury,
the Fourteenth Amendment presumption of innocence, and
the prohibition on double jeopardy.6 Alternatively, he
argues that, even if the trial court’s findings did not rise to
the level of a constitutional violation, the court nonetheless
abused its discretion by not considering factors in mitigation.
The People respond that Lewis forfeited the arguments by
failing to raise them below, but that regardless, the
aggravating factors upon which the trial court relied were
not improper, and it did not abuse its discretion by imposing
the upper terms for voluntary manslaughter and the firearm
enhancement. We agree with the People.

6

Lewis admits that, under current law, the prescribed
determinate sentence high term is the statutory maximum
for purposes of Apprendi v. New Jersey (2000) 530 U.S. 466,
and that the court may consider facts outside of the trial
record that were not found by a jury.

22

“[C]omplaints about the manner in which the trial
court exercises its sentencing discretion and articulates its
supporting reasons cannot be raised for the first time on
appeal.” (People v. Scott (1994) 9 Cal.4th 331, 356.) This
includes claims that the trial court failed to consider
mitigating factors. (People v. Kelley (1997) 52 Cal.App.4th
568, 582.) Lewis failed to object to the trial court’s selection
of the upper term of imprisonment on the specific ground
that the trial court made findings contrary to the jury’s
verdict, and has thus forfeited the contention. (People v.
Scott, supra, 9 Cal.4th at pp. 352–353.) Regardless, the
contention lacks merit.
A trial court’s exercise of its discretion in selecting a
lower, middle, or upper term sentence under section 1170 is
reviewed for abuse of discretion. (People v. Sandoval (2007)
41 Cal.4th 825, 847.) “[A] trial court is free to base an upper
term sentence upon any aggravating circumstance that the
court deems significant,” and is “‘reasonably related to the
decision being made.’ [Citation.]” (Id. at p. 848.) A single
factor may be determinative in the sentencing decision.
(People v. Black (2007) 41 Cal.4th 799, 812.)
In People v. Towne (2008) 44 Cal.4th 63 (Towne), our
Supreme Court held that a trial court has “broad discretion
to consider relevant evidence at sentencing.” (Id. at p. 85.)
“Nothing in the applicable statute or rules suggests that a
trial court must ignore evidence related to the offense of
which the defendant was convicted, merely because that
evidence did not convince a jury that the defendant was

23

guilty beyond a reasonable doubt of related offenses.” (Id. at
pp. 85–86.) Towne further held that the Sixth Amendment
right to a jury trial is not offended when a judge considers
conduct underlying acquitted charges. (Id. at p. 86.) “[A]n
acquittal merely establishes the existence of a reasonable
doubt as to guilt. Unless specific findings are made, ‘the jury
cannot be said to have “necessarily rejected” any facts when
it returns a general verdict. . . .’ [Citation.]” (Ibid.)
“‘Judicial factfinding in the course of selecting a sentence
within the authorized range does not implicate the
indictment, jury-trial, and reasonable-doubt components of
the Fifth and Sixth Amendments.’ [Citation].” (Ibid.)
Lewis urges us not to follow Towne, which he claims
was decided on the basis of the defendant’s extensive
criminal history, a factor he alleges is not present in this
case. He also argues that the Towne court did not need to
decide whether the trial court could consider conduct
underlying acquitted charges, and its discussion thereof was
dicta.
We are bound to follow Towne where it is applicable.
(Auto Equity Sales, Inc. v. Superior Court (1962) 57 Cal.2d
450, 455 [appellate court is bound to follow holdings of the
Supreme Court].) In this case, however, the facts the trial
court relied upon did not contravene the jury’s findings or
verdicts or otherwise rely on conduct underlying acquitted
charges. The jury’s manslaughter verdict encompassed
either the finding that Lewis (a) actually believed that he or
Roberts was in imminent danger of being killed or suffering

24

great bodily injury and that the immediate use of deadly
force was necessary to defend against the danger, but at
least one of those beliefs was unreasonable (CALCRIM No.
571 [Imperfect Self-Defense]); or (b) was provoked, and acted
rashly and under the influence of intense emotion that
obscured his reasoning or judgment as a result of that
provocation, and the provocation would have caused a person
of average disposition to act rashly and without due
deliberation (CALCRIM No. 570 [Provocation/Heat of
Passion]). The jury also found that Lewis personally
discharged a firearm, causing Brown’s death.
None of those findings was contrary to the trial court’s
stated factors in aggravation—that Brown was unarmed
when Lewis shot him; that Lewis was callous regarding
Brown’s death; or that Lewis’s actions caused Brown’s
death.7 At trial, it was uncontested that Brown was
7

Lewis argues that the trial court’s pronouncement at
sentencing showed that it agreed with three of the
aggravating factors listed in the prosecution’s sentencing
memorandum, specifically: “(1) The crime involved great
violence and callousness in that Brown was shot dead and
appellant expressed no remorse in the subsequent telephone
call; [¶] (2) The victim was particularly vulnerable in that
Brown was unarmed; [¶] (3) The the [sic] manner in which
the crime was carried out indicated planning and
sophistication in that appellant and Roberts ‘sought to
provoke gang members on the train’ and that when
‘individuals’ at the station responded to appellant and
Robert’s ‘challenges,’ appellant ‘kicked off the safety’ of his
weapon.” In fact, the trial court did not expressly adopt the

25

unarmed when he was killed. Neither the defense of
provocation nor imperfect self-defense required the jury to
make a finding regarding Lewis’s callousness to Brown’s
death—it had only to determine that he was adequately
provoked or had acted in the unreasonable belief that he or
Roberts would suffer great bodily injury or death if he did
not act. With respect to Lewis’s actions causing Brown’s
death, it was undisputed that he chose to carry a loaded gun
and exited the light rail outside of Grape Street territory.
Moton stated to police that Lewis had issued gang challenges
to “everyone” on the platform, and specifically to Brown.
Although the jury was instructed that “[i]mperfect selfdefense does not apply when the defendant, through his own
wrongful conduct, has created circumstances that justify his
adversary’s use of force[,]” it was not required to find that
Lewis did not issue gang challenges. Even assuming that it
found Lewis acted in imperfect self-defense, the jury could
reasoning in the People’s sentencing memorandum, but
stated to the contrary that, although the court generally
agreed with the People, “[the court] may not agree 100
percent with what the People said.” Lewis also reasons that
because it did not state otherwise the trial court “apparently
agreed” with defense counsel’s argument that “appellant had
not been convicted of anything in relation to the other gangshooting and ‘had no previous violent conduct on his record.’”
We disagree. The trial court clearly stated the factors upon
which it relied in pronouncing sentence. We evaluate the
propriety of the sentence based upon the factors the court
itself articulated.

26

still reach the conclusion that Lewis “banged on” Brown, but
that his actions weren’t sufficient to justify Brown in
punching him. The trial court could find that Lewis’s actions
“caused” the shooting that followed, even if a reasonable
person would not react as Brown did, without contravening
the jury’s manslaughter verdict. Consideration of these
factors neither contravened the jury’s verdict nor otherwise
impinged on Lewis’s constitutional rights.
Alternatively, Lewis complains that, even if the trial
court’s imposition of the high terms did not rise to the level
of a constitutional violation, the trial court abused its
discretion by not considering mitigating factors, including
that “(1) The victim was an initiator of, willing participant in
the crime; [¶] (2) The crime was committed because of an
unusual circumstances [sic], such as great provocation; [¶]
(3) The defendant has no prior record, or has an insignificant
record of criminal conduct, considering the recency [sic] and
frequency of prior crimes; [and] [¶] (4) The defendant’s prior
performance on probation, mandatory supervision, postrelease community supervision, or parole was satisfactory.”8
“Absent an explicit statement by the trial court to the
contrary, it is presumed the court properly exercised its legal
duty to consider all possible mitigating and aggravating
8

In light of Lewis’s argument in the opening brief that
the court “apparently agreed” with the third mitigating
factor enumerated in his sentencing memorandum, it is
perplexing that he argues the trial court did not consider
this proposed mitigating factor.

27

factors in determining the appropriate sentence.” (People v.
Oberreuter (1988) 204 Cal.App.3d 884, 888, disapproved on
another ground in People v. Walker (1991) 54 Cal.3d 1013,
1022–1023.) Here, the record does not affirmatively show
the court ignored any relevant mitigating factors. To the
contrary, the trial court stated that it had reviewed the
defense’s sentencing memorandum, which listed all of these
specific factors, before pronouncing sentence. The court
acknowledged the existence of mitigating factors, stating
that “the factors in aggravation greatly outweigh the factors
in mitigation.” It was not required to give specific reasons
for rejecting mitigating factors. (People v. Jones (1985) 164
Cal.App.3d 1173, 1181 [trial court required to consider
aggravating and mitigating factors prior to sentencing, but
not required to set forth reasons for rejecting mitigating
factors].) The trial court did not abuse its discretion.

28

DISPOSITION
We affirm the trial court’s judgment.

MOOR, J.
We concur:

BAKER, Acting P. J.

KIM, J.

29

APPENDIX B

APPENDIX C

Cal. Penal Code, § 187, sub. (a):
(a) Murder is the unlawful killing of a human being, or a fetus, with malice
aforethought.
(b) [exempts abortions as defined and as exempted by law]
(c) Subdivision (b) shall not be construed to prohibit the prosecution of any
person under any other provision of law.
(Amended by Stats. 1996, Ch. 1023, Sec. 385. Effective September 29, 1996.)
Cal. Penal Code, § 188:
(a) For purposes of Section 187, malice may be express or implied.
(1) Malice is express when there is manifested a deliberate intention to
unlawfully take away the life of a fellow creature.
(2) Malice is implied when no considerable provocation appears, or when the
circumstances attending the killing show an abandoned and malignant heart.
(3) Except as stated in subdivision (e) of Section 189, in order to be convicted of
murder, a principal in a crime shall act with malice aforethought. Malice shall not
be imputed to a person based solely on his or her participation in a crime.
(b) If it is shown that the killing resulted from an intentional act with express or
implied malice, as defined in subdivision (a), no other mental state need be
shown to establish the mental state of malice aforethought. Neither an awareness
of the obligation to act within the general body of laws regulating society nor
acting despite that awareness is included within the definition of malice.
Cal. Penal Code, § 189:
(a) All murder that is perpetrated by means of a destructive device or explosive,
a weapon of mass destruction, knowing use of ammunition designed primarily
to penetrate metal or armor, poison, lying in wait, torture, or by any other kind of
willful, deliberate, and premeditated killing, or that is committed in the
perpetration of, or attempt to perpetrate, arson, rape, carjacking, robbery,
burglary, mayhem, kidnapping, train wrecking, or any act punishable under
Section 206, 286, 287, 288, or 289, or former Section 288a, or murder that is
perpetrated by means of discharging a firearm from a motor vehicle,
intentionally at another person outside of the vehicle with the intent to inflict
death, is murder of the first degree.
(b) All other kinds of murders are of the second degree.
(c) As used in this section, the following definitions apply:
27

(1) “Destructive device” has the same meaning as in Section 16460.
(2) “Explosive” has the same meaning as in Section 12000 of the Health and
Safety Code.
(3) “Weapon of mass destruction” means any item defined in Section 11417.
(d) To prove the killing was “deliberate and premeditated,” it is not necessary to
prove the defendant maturely and meaningfully reflected upon the gravity of the
defendant’s act.
(e) A participant in the perpetration or attempted perpetration of a felony listed
in subdivision (a) in which a death occurs is liable for murder only if one of the
following is proven:
(1) The person was the actual killer.
(2) The person was not the actual killer, but, with the intent to kill, aided, abetted,
counseled, commanded, induced, solicited, requested, or assisted the actual killer
in the commission of murder in the first degree.
(3) The person was a major participant in the underlying felony and acted with
reckless indifference to human life, as described in subdivision (d) of Section
190.2.
(f) Subdivision (e) does not apply to a defendant when the victim is a peace
officer who was killed while in the course of the peace officer’s duties, where the
defendant knew or reasonably should have known that the victim was a peace
officer engaged in the performance of the peace officer’s duties.
(Amended by Stats. 2019, Ch. 497, Sec. 192. (AB 991) Effective January 1, 2020. Note:
This section was amended on June 5, 1990, by initiative Prop. 115.)

Cal. Penal Code, § 189.5:
(a) Upon a trial for murder, the commission of the homicide by the defendant
being proved, the burden of proving circumstances of mitigation, or that justify
or excuse it, devolves upon the defendant, unless the proof on the part of the
prosecution tends to show that the crime committed only amounts to
manslaughter, or that the defendant was justifiable or excusable.
(b) Nothing in this section shall apply to or affect any proceeding under Section
190.3 or 190.4.
Cal. Penal Code, § 190:
(a) Every person guilty of murder in the first degree shall be punished by death,
imprisonment in the state prison for life without the possibility of parole, or
28

imprisonment in the state prison for a term of 25 years to life. The penalty to be
applied shall be determined as provided in Sections 190.1, 190.2, 190.3, 190.4, and
190.5.
Except as provided in subdivision (b), (c), or (d), every person guilty of murder
in the second degree shall be punished by imprisonment in the state prison for a
term of 15 years to life.
(b) Except as provided in subdivision (c), every person guilty of murder in the
second degree shall be punished by imprisonment in the state prison for a term
of 25 years to life if the victim was a peace officer, as defined in subdivision (a) of
Section 830.1, subdivision (a), (b), or (c) of Section 830.2, subdivision (a) of
Section 830.33, or Section 830.5, who was killed while engaged in the
performance of his or her duties, and the defendant knew, or reasonably should
have known, that the victim was a peace officer engaged in the performance of
his or her duties.
(c) Every person guilty of murder in the second degree shall be punished by
imprisonment in the state prison for a term of life without the possibility of
parole if the victim was a peace officer, as defined in subdivision (a) of Section
830.1, subdivision (a), (b), or (c) of Section 830.2, subdivision (a) of Section 830.33,
or Section 830.5, who was killed while engaged in the performance of his or her
duties, and the defendant knew, or reasonably should have known, that the
victim was a peace officer engaged in the performance of his or her duties, and
any of the following facts has been charged and found true:
(1) The defendant specifically intended to kill the peace officer.
(2) The defendant specifically intended to inflict great bodily injury, as defined in
Section 12022.7, on a peace officer.
(3) The defendant personally used a dangerous or deadly weapon in the
commission of the offense, in violation of subdivision (b) of Section 12022.
(4) The defendant personally used a firearm in the commission of the offense, in
violation of Section 12022.5.
(d) Every person guilty of murder in the second degree shall be punished by
imprisonment in the state prison for a term of 20 years to life if the killing was
perpetrated by means of shooting a firearm from a motor vehicle, intentionally at
another person outside of the vehicle with the intent to inflict great bodily injury.
(e) Article 2.5 (commencing with Section 2930) of Chapter 7 of Title 1 of Part 3
shall not apply to reduce any minimum term of a sentence imposed pursuant to
this section. A person sentenced pursuant to this section shall not be released on
parole prior to serving the minimum term of confinement prescribed by this
section.
(Amended by Stats. 1998, Ch. 760, Sec. 6. Approved in Proposition 19 at the March 7, 2000,
election. Prior History: Added Nov. 7, 1978, by initiative Prop. 7; amended June 7, 1988, by
Prop. 67 (from Stats. 1987, Ch. 1006); amended June 7, 1994, by Prop. 179 (from Stats. 1993,

29

Ch. 609); amended June 2, 1998, by Prop. 222 (from Stats. 1997, Ch. 413, Sec. 1, which
incorporated Stats. 1996, Ch. 598).)

Cal. Penal Code, § 190.05:
(a) The penalty for a defendant found guilty of murder in the second degree,
who has served a prior prison term for murder in the first or second degree, shall
be confinement in the state prison for a term of life without the possibility of
parole or confinement in the state prison for a term of 15 years to life. For
purposes of this section, a prior prison term for murder of the first or second
degree is that time period in which a defendant has spent actually incarcerated
for his or her offense prior to release on parole.
(b) A prior prison term for murder for purposes of this section includes either of
the following:
(1) A prison term served in any state prison or federal penal institution, including
confinement in a hospital or other institution or facility credited as service of
prison time in the jurisdiction of confinement, as punishment for the commission
of an offense which includes all of the elements of murder in the first or second
degree as defined under California law.
(2) Incarceration at a facility operated by the Youth Authority for murder of the
first or second degree when the person was subject to the custody, control, and
discipline of the Director of Corrections.
(c) The fact of a prior prison term for murder in the first or second degree shall be
alleged in the accusatory pleading, and either admitted by the defendant in open
court, or found to be true by the jury trying the issue of guilt or by the court
where guilt is established by a plea of guilty or nolo contendere or by trial by the
court sitting without a jury.
(d) In case of a reasonable doubt as to whether the defendant served a prior
prison term for murder in the first or second degree, the defendant is entitled to a
finding that the allegation is not true.
(e) If the trier of fact finds that the defendant has served a prior prison term for
murder in the first or second degree, there shall be a separate penalty hearing
before the same trier of fact, except as provided in subdivision (f).
(f) If the defendant was convicted by the court sitting without a jury, the trier of
fact at the penalty hearing shall be a jury unless a jury is waived by the
defendant and the people, in which case the trier of fact shall be the court. If the
defendant was convicted by a plea of guilty or nolo contendere, the trier of fact
shall be a jury unless a jury is waived by the defendant and the people.
If the trier of fact is a jury and has been unable to reach a unanimous verdict as to
what the penalty shall be, the court shall dismiss the jury and shall order a new
jury impaneled to try the issue as to what the penalty shall be. If the new jury is
unable to reach a unanimous verdict as to what the penalty shall be, the court in
30

its discretion shall either order a new jury or impose a punishment of
confinement in the state prison for a term of 15 years to life.
(g) Evidence presented at any prior phase of the trial, including any proceeding
under a plea of not guilty by reason of insanity pursuant to Section 1026, shall be
considered at any subsequent phase of the trial, if the trier of fact of the prior
phase is the same trier of fact at the subsequent phase.
(h) In the proceeding on the question of penalty, evidence may be presented by
both the people and the defendant as to any matter relevant to aggravation,
mitigation, and sentence, including, but not limited to, the nature and
circumstances of the present offense, any prior felony conviction or convictions
whether or not such conviction or convictions involved a crime of violence, the
presence or absence of other criminal activity by the defendant which involved
the use or attempted use of force or violence or which involved the express or
implied threat to use force or violence, and the defendant’s character,
background, history, mental condition, and physical condition.
However, no evidence shall be admitted regarding other criminal activity by the
defendant which did not involve the use or attempted use of force or violence or
which did not involve the express or implied threat to use force or violence. As
used in this section, criminal activity does not require a conviction.
However, in no event shall evidence of prior criminal activity be admitted for an
offense for which the defendant was prosecuted and acquitted. The restriction on
the use of this evidence is intended to apply only to proceedings pursuant to this
section and is not intended to affect statutory or decisional law allowing such
evidence to be used in any other proceedings.
Except for evidence in proof of the offense or the prior prison term for murder of
the first or second degree which subjects a defendant to the punishment of life
without the possibility of parole, no evidence may be presented by the
prosecution in aggravation unless notice of the evidence to be introduced has
been given to the defendant within a reasonable period of time as determined by
the court, prior to trial. Evidence may be introduced without such notice in
rebuttal to evidence introduced by the defendant in mitigation.
In determining the penalty, the trier of fact shall take into account any of the
following factors if relevant:
(1) The circumstances of the crime of which the defendant was convicted in the
present proceeding and the existence of the prior prison term for murder.
(2) The presence or absence of criminal activity by the defendant which involved
the use or attempted use of force or violence or the express or implied threat to
use force or violence.
(3) The presence or absence of any prior felony conviction.
(4) Whether or not the offense was committed while the defendant was under the
influence of extreme mental or emotional disturbance.
31

(5) Whether or not the victim was a participant in the defendant’s homicidal
conduct or consented to the homicidal act.
(6) Whether or not the offense was committed under circumstances which the
defendant reasonably believed to be a moral justification or extenuation for his or
her conduct.
(7) Whether or not the defendant acted under extreme duress or under the
substantial domination of another person.
(8) Whether or not at the time of the offense the ability of the defendant to
appreciate the criminality of his or her conduct or to conform his or her conduct
to the requirements of law was impaired as a result of mental disease or defect,
or the effects of intoxication.
(9) The age of the defendant at the time of the crime.
(10) Whether or not the defendant was an accomplice to the offense and his or
her participation in the commission of the offense was relatively minor.
(11) Any other circumstance which extenuates the gravity of the crime even
though it is not a legal excuse for the crime.
After having heard and received all of the evidence, and after having heard and
considered the arguments of counsel, the trier of fact shall consider, take into
account, and be guided by the aggravating and mitigating circumstances referred
to in this section, and shall impose a sentence of life without the possibility of
parole if the trier of fact concludes that the aggravating circumstances outweigh
the mitigating circumstances. If the trier of fact determines that the mitigating
circumstances outweigh the aggravating circumstances, the trier of fact shall
impose a sentence of confinement in the state prison for 15 years to life.
(i) Nothing in this section shall be construed to prohibit the charging of finding of
any special circumstance pursuant to Sections 190.1, 190.2, 190.3, 190.4, and 190.5.
(Added by Stats. 1985, Ch. 1510, Sec. 1.)

Cal. Penal Code, § 192:
Manslaughter is the unlawful killing of a human being without malice. It is of
three kinds:
(a) Voluntary—upon a sudden quarrel or heat of passion.
(b) Involuntary—in the commission of an unlawful act, not amounting to a
felony; or in the commission of a lawful act which might produce death, in an
unlawful manner, or without due caution and circumspection. This subdivision
shall not apply to acts committed in the driving of a vehicle.
(c) Vehicular— [ omitted as inapplicable]
(d) [omitted as inapplicable]
(e) “Gross negligence,” as used in this section, does not prohibit or preclude a
32

charge of murder under Section 188 upon facts exhibiting wantonness and a
conscious disregard for life to support a finding of implied malice, or upon facts
showing malice, consistent with the holding of the California Supreme Court in
People v. Watson (1981) 30 Cal.3d 290.
(f) (1) For purposes of determining sudden quarrel or heat of passion pursuant to
subdivision (a), the provocation was not objectively reasonable if it resulted from
the discovery of, knowledge about, or potential disclosure of the victim’s actual
or perceived gender, gender identity, gender expression, or sexual orientation,
including under circumstances in which the victim made an unwanted
nonforcible romantic or sexual advance towards the defendant, or if the
defendant and victim dated or had a romantic or sexual relationship. Nothing in
this section shall preclude the jury from considering all relevant facts to
determine whether the defendant was in fact provoked for purposes of
establishing subjective provocation.
(2) For purposes of this subdivision, “gender” includes a person’s gender
identity and gender-related appearance and behavior regardless of whether that
appearance or behavior is associated with the person’s gender as determined at
birth.
(Amended by Stats. 2014, Ch. 684, Sec. 1. (AB 2501) Effective January 1, 2015.)

Cal. Penal Code, § 193:
(a) Voluntary manslaughter is punishable by imprisonment in the state prison for
3, 6, or 11 years.
(b) Involuntary manslaughter is punishable by imprisonment pursuant to
subdivision (h) of Section 1170 for two, three, or four years.
(c) Vehicular manslaughter is punishable as follows:
(1) A violation of paragraph (1) of subdivision (c) of Section 192 is punishable
either by imprisonment in the county jail for not more than one year or by
imprisonment in the state prison for two, four, or six years.
(2) A violation of paragraph (2) of subdivision (c) of Section 192 is punishable by
imprisonment in the county jail for not more than one year.
(3) A violation of paragraph (3) of subdivision (c) of Section 192 is punishable by
imprisonment in the state prison for 4, 6, or 10 years.
(Amended by Stats. 2011, Ch. 15, Sec. 282. (AB 109) Effective April 4, 2011. Operative October
1, 2011, by Sec. 636 of Ch. 15, as amended by Stats. 2011, Ch. 39, Sec. 68.)

Cal. Penal Code, § 195:
Homicide is excusable in the following cases:

33

1. When committed by accident and misfortune, or in doing any other lawful act
by lawful means, with usual and ordinary caution, and without any unlawful
intent.
2. When committed by accident and misfortune, in the heat of passion, upon any
sudden and sufficient provocation, or upon a sudden combat, when no undue
advantage is taken, nor any dangerous weapon used, and when the killing is not
done in a cruel or unusual manner.
Cal. Penal Code, § 197:
Homicide is also justifiable when committed by any person in any of the
following cases:
(1) When resisting any attempt to murder any person, or to commit a felony, or to
do some great bodily injury upon any person.
(2) When committed in defense of habitation, property, or person, against one
who manifestly intends or endeavors, by violence or surprise, to commit a felony,
or against one who manifestly intends and endeavors, in a violent, riotous, or
tumultuous manner, to enter the habitation of another for the purpose of offering
violence to any person therein.
(3) When committed in the lawful defense of such person, or of a spouse, parent,
child, master, mistress, or servant of such person, when there is reasonable
ground to apprehend a design to commit a felony or to do some great bodily
injury, and imminent danger of such design being accomplished; but such
person, or the person in whose behalf the defense was made, if he or she was the
assailant or engaged in mutual combat, must really and in good faith have
endeavored to decline any further struggle before the homicide was committed.
(4) When necessarily committed in attempting, by lawful ways and means, to
apprehend any person for any felony committed, or in lawfully suppressing any
riot, or in lawfully keeping and preserving the peace.
(Amended by Stats. 2016, Ch. 50, Sec. 67. (SB 1005) Effective January 1, 2017.)

Cal. Penal Code, § 12022.53.
(a) This section applies to the following felonies:
(1) Section 187 (murder).
(2) Section 203 or 205 (mayhem).
(3) Section 207, 209, or 209.5 (kidnapping).
(4) Section 211 (robbery).
(5) Section 215 (carjacking).
(6) Section 220 (assault with intent to commit a specified felony).
(7) Subdivision (d) of Section 245 (assault with a firearm on a peace officer or
34

firefighter).
(8) Section 261 or 262 (rape).
(9) Section 264.1 (rape or sexual penetration in concert).
(10) Section 286 (sodomy).
(11) Section 287 or former Section 288a (oral copulation).
(12) Section 288 or 288.5 (lewd act on a child).
(13) Section 289 (sexual penetration).
(14) Section 4500 (assault by a life prisoner).
(15) Section 4501 (assault by a prisoner).
(16) Section 4503 (holding a hostage by a prisoner).
(17) Any felony punishable by death or imprisonment in the state prison for life.
(18) Any attempt to commit a crime listed in this subdivision other than an
assault.
(b) Notwithstanding any other provision of law, any person who, in the
commission of a felony specified in subdivision (a), personally uses a firearm,
shall be punished by an additional and consecutive term of imprisonment in the
state prison for 10 years. The firearm need not be operable or loaded for this
enhancement to apply.
(c) Notwithstanding any other provision of law, any person who, in the
commission of a felony specified in subdivision (a), personally and intentionally
discharges a firearm, shall be punished by an additional and consecutive term of
imprisonment in the state prison for 20 years.
(d) Notwithstanding any other provision of law, any person who, in the
commission of a felony specified in subdivision (a), Section 246, or subdivision
(c) or (d) of Section 26100, personally and intentionally discharges a firearm and
proximately causes great bodily injury, as defined in Section 12022.7, or death, to
any person other than an accomplice, shall be punished by an additional and
consecutive term of imprisonment in the state prison for 25 years to life.
(e) (1) The enhancements provided in this section shall apply to any person who
is a principal in the commission of an offense if both of the following are pled
and proved:
(A) The person violated subdivision (b) of Section 186.22.
(B) Any principal in the offense committed any act specified in subdivision (b),
(c), or (d).
(2) An enhancement for participation in a criminal street gang pursuant to
Chapter 11 (commencing with Section 186.20) of Title 7 of Part 1 shall not be
imposed on a person in addition to an enhancement imposed pursuant to this
35

subdivision, unless the person personally used or personally discharged a
firearm in the commission of the offense.
(f) Only one additional term of imprisonment under this section shall be imposed
per person for each crime. If more than one enhancement per person is found
true under this section, the court shall impose upon that person the enhancement
that provides the longest term of imprisonment. An enhancement involving a
firearm specified in Section 12021.5, 12022, 12022.3, 12022.4, 12022.5, or 12022.55
shall not be imposed on a person in addition to an enhancement imposed
pursuant to this section. An enhancement for great bodily injury as defined in
Section 12022.7, 12022.8, or 12022.9 shall not be imposed on a person in addition
to an enhancement imposed pursuant to subdivision (d).
(g) Notwithstanding any other provision of law, probation shall not be granted
to, nor shall the execution or imposition of sentence be suspended for, any person
found to come within the provisions of this section.
(h) The court may, in the interest of justice pursuant to Section 1385 and at the
time of sentencing, strike or dismiss an enhancement otherwise required to be
imposed by this section. The authority provided by this subdivision applies to
any resentencing that may occur pursuant to any other law.
(i) The total amount of credits awarded pursuant to Article 2.5 (commencing with
Section 2930) of Chapter 7 of Title 1 of Part 3 or pursuant to Section 4019 or any
other provision of law shall not exceed 15 percent of the total term of
imprisonment imposed on a defendant upon whom a sentence is imposed
pursuant to this section.
(j) For the penalties in this section to apply, the existence of any fact required
under subdivision (b), (c), or (d) shall be alleged in the accusatory pleading and
either admitted by the defendant in open court or found to be true by the trier of
fact. When an enhancement specified in this section has been admitted or found
to be true, the court shall impose punishment for that enhancement pursuant to
this section rather than imposing punishment authorized under any other
provision of law, unless another enhancement provides for a greater penalty or a
longer term of imprisonment.
(k) When a person is found to have used or discharged a firearm in the
commission of an offense that includes an allegation pursuant to this section and
the firearm is owned by that person, a coparticipant, or a coconspirator, the court
shall order that the firearm be deemed a nuisance and disposed of in the manner
provided in Sections 18000 and 18005.
(l) The enhancements specified in this section shall not apply to the lawful use or
discharge of a firearm by a public officer, as provided in Section 196, or by any
person in lawful self-defense, lawful defense of another, or lawful defense of
property, as provided in Sections 197, 198, and 198.5.
(Amended by Stats. 2018, Ch. 423, Sec. 114. (SB 1494) Effective January 1, 2019.)

36

Cal. Penal Code, § 186.22.
(a) Any person who actively participates in any criminal street gang with
knowledge that its members engage in, or have engaged in, a pattern of criminal
gang activity, and who willfully promotes, furthers, or assists in any felonious
criminal conduct by members of that gang, shall be punished by imprisonment
in a county jail for a period not to exceed one year, or by imprisonment in the
state prison for 16 months, or two or three years.
(b) (1) Except as provided in paragraphs (4) and (5), any person who is convicted
of a felony committed for the benefit of, at the direction of, or in association with
any criminal street gang, with the specific intent to promote, further, or assist in
any criminal conduct by gang members, shall, upon conviction of that felony, in
addition and consecutive to the punishment prescribed for the felony or
attempted felony of which he or she has been convicted, be punished as follows:
(A) Except as provided in subparagraphs (B) and (C), the person shall be
punished by an additional term of two, three, or four years at the court’s
discretion.
(B) If the felony is a serious felony, as defined in subdivision (c) of Section 1192.7,
the person shall be punished by an additional term of five years.
(C) If the felony is a violent felony, as defined in subdivision (c) of Section 667.5,
the person shall be punished by an additional term of 10 years.
(2) If the underlying felony described in paragraph (1) is committed on the
grounds of, or within 1,000 feet of, a public or private elementary, vocational,
junior high, or high school, during hours in which the facility is open for classes
or school-related programs or when minors are using the facility, that fact shall
be a circumstance in aggravation of the crime in imposing a term under
paragraph (1).
(3) The court shall select the sentence enhancement that, in the court’s discretion,
best serves the interests of justice and shall state the reasons for its choice on the
record at the time of the sentencing in accordance with the provisions of
subdivision (d) of Section 1170.1.
(4) Any person who is convicted of a felony enumerated in this paragraph
committed for the benefit of, at the direction of, or in association with any
criminal street gang, with the specific intent to promote, further, or assist in any
criminal conduct by gang members, shall, upon conviction of that felony, be
sentenced to an indeterminate term of life imprisonment with a minimum term
of the indeterminate sentence calculated as the greater of:
(A) The term determined by the court pursuant to Section 1170 for the
underlying conviction, including any enhancement applicable under Chapter 4.5
(commencing with Section 1170) of Title 7 of Part 2, or any period prescribed by
Section 3046, if the felony is any of the offenses enumerated in subparagraph (B)
or (C) of this paragraph.
37

(B) Imprisonment in the state prison for 15 years, if the felony is a home invasion
robbery, in violation of subparagraph (A) of paragraph (1) of subdivision (a) of
Section 213; carjacking, as defined in Section 215; a felony violation of Section
246; or a violation of Section 12022.55.
(C) Imprisonment in the state prison for seven years, if the felony is extortion, as
defined in Section 519; or threats to victims and witnesses, as defined in Section
136.1.
(5) Except as provided in paragraph (4), any person who violates this subdivision
in the commission of a felony punishable by imprisonment in the state prison for
life shall not be paroled until a minimum of 15 calendar years have been served.
(c) If the court grants probation or suspends the execution of sentence imposed
upon the defendant for a violation of subdivision (a), or in cases involving a true
finding of the enhancement enumerated in subdivision (b), the court shall require
that the defendant serve a minimum of 180 days in a county jail as a condition
thereof.
(d) Any person who is convicted of a public offense punishable as a felony or a
misdemeanor, which is committed for the benefit of, at the direction of, or in
association with any criminal street gang, with the specific intent to promote,
further, or assist in any criminal conduct by gang members, shall be punished by
imprisonment in a county jail not to exceed one year, or by imprisonment in a
state prison for one, two, or three years, provided that any person sentenced to
imprisonment in the county jail shall be imprisoned for a period not to exceed
one year, but not less than 180 days, and shall not be eligible for release upon
completion of sentence, parole, or any other basis, until he or she has served 180
days. If the court grants probation or suspends the execution of sentence
imposed upon the defendant, it shall require as a condition thereof that the
defendant serve 180 days in a county jail.
(e) As used in this chapter, “pattern of criminal gang activity” means the
commission of, attempted commission of, conspiracy to commit, or solicitation
of, sustained juvenile petition for, or conviction of two or more of the following
offenses, provided at least one of these offenses occurred after the effective date
of this chapter and the last of those offenses occurred within three years after a
prior offense, and the offenses were committed on separate occasions, or by two
or more persons:
(1) Assault with a deadly weapon or by means of force likely to produce great
bodily injury, as defined in Section 245.
(2) Robbery, as defined in Chapter 4 (commencing with Section 211) of Title 8.
(3) Unlawful homicide or manslaughter, as defined in Chapter 1 (commencing
with Section 187) of Title 8.
(4) The sale, possession for sale, transportation, manufacture, offer for sale, or
offer to manufacture controlled substances as defined in Sections 11054, 11055,
38

11056, 11057, and 11058 of the Health and Safety Code.
(5) Shooting at an inhabited dwelling or occupied motor vehicle, as defined in
Section 246.
(6) Discharging or permitting the discharge of a firearm from a motor vehicle, as
defined in subdivisions (a) and (b) of Section 12034 until January 1, 2012, and, on
or after that date, subdivisions (a) and (b) of Section 26100.
(7) Arson, as defined in Chapter 1 (commencing with Section 450) of Title 13.
(8) The intimidation of witnesses and victims, as defined in Section 136.1.
(9) Grand theft, as defined in subdivision (a) or (c) of Section 487.
(10) Grand theft of any firearm, vehicle, trailer, or vessel.
(11) Burglary, as defined in Section 459.
(12) Rape, as defined in Section 261.
(13) Looting, as defined in Section 463.
(14) Money laundering, as defined in Section 186.10.
(15) Kidnapping, as defined in Section 207.
(16) Mayhem, as defined in Section 203.
(17) Aggravated mayhem, as defined in Section 205.
(18) Torture, as defined in Section 206.
(19) Felony extortion, as defined in Sections 518 and 520.
(20) Felony vandalism, as defined in paragraph (1) of subdivision (b) of Section
594.
(21) Carjacking, as defined in Section 215.
(22) The sale, delivery, or transfer of a firearm, as defined in Section 12072 until
January 1, 2012, and, on or after that date, Article 1 (commencing with Section
27500) of Chapter 4 of Division 6 of Title 4 of Part 6.
(23) Possession of a pistol, revolver, or other firearm capable of being concealed
upon the person in violation of paragraph (1) of subdivision (a) of Section 12101
until January 1, 2012, and, on or after that date, Section 29610.
(24) Threats to commit crimes resulting in death or great bodily injury, as defined
in Section 422.
(25) Theft and unlawful taking or driving of a vehicle, as defined in Section 10851
of the Vehicle Code.
(26) Felony theft of an access card or account information, as defined in Section
484e.
(27) Counterfeiting, designing, using, or attempting to use an access card, as
39

defined in Section 484f.
(28) Felony fraudulent use of an access card or account information, as defined in
Section 484g.
(29) Unlawful use of personal identifying information to obtain credit, goods,
services, or medical information, as defined in Section 530.5.
(30) Wrongfully obtaining Department of Motor Vehicles documentation, as
defined in Section 529.7.
(31) Prohibited possession of a firearm in violation of Section 12021 until January
1, 2012, and on or after that date, Chapter 2 (commencing with Section 29800) of
Division 9 of Title 4 of Part 6.
(32) Carrying a concealed firearm in violation of Section 12025 until January 1,
2012, and, on or after that date, Section 25400.
(33) Carrying a loaded firearm in violation of Section 12031 until January 1, 2012,
and, on or after that date, Section 25850.
(f) As used in this chapter, “criminal street gang” means any ongoing
organization, association, or group of three or more persons, whether formal or
informal, having as one of its primary activities the commission of one or more of
the criminal acts enumerated in paragraphs (1) to (25), inclusive, or (31) to (33),
inclusive, of subdivision (e), having a common name or common identifying sign
or symbol, and whose members individually or collectively engage in, or have
engaged in, a pattern of criminal gang activity.
(g) Notwithstanding any other law, the court may strike the additional
punishment for the enhancements provided in this section or refuse to impose
the minimum jail sentence for misdemeanors in an unusual case where the
interests of justice would best be served, if the court specifies on the record and
enters into the minutes the circumstances indicating that the interests of justice
would best be served by that disposition.
(h) Notwithstanding any other law, for each person committed to the
Department of Corrections and Rehabilitation, Division of Juvenile Facilities for a
conviction pursuant to subdivision (a) or (b) of this section, the offense shall be
deemed one for which the state shall pay the rate of 100 percent of the per capita
institutional cost of the Department of Corrections and Rehabilitation, Division
of Juvenile Facilities, pursuant to former Section 912.5 of the Welfare and
Institutions Code.
(i) In order to secure a conviction or sustain a juvenile petition, pursuant to
subdivision (a) it is not necessary for the prosecution to prove that the person
devotes all, or a substantial part, of his or her time or efforts to the criminal street
gang, nor is it necessary to prove that the person is a member of the criminal
street gang. Active participation in the criminal street gang is all that is required.
(j) A pattern of gang activity may be shown by the commission of one or more of
40

the offenses enumerated in paragraphs (26) to (30), inclusive, of subdivision (e),
and the commission of one or more of the offenses enumerated in paragraphs (1)
to (25), inclusive, or (31) to (33), inclusive, of subdivision (e). A pattern of gang
activity cannot be established solely by proof of commission of offenses
enumerated in paragraphs (26) to (30), inclusive, of subdivision (e), alone.
(k) This section shall remain in effect only until January 1, 2022, and as of that
date is repealed, unless a later enacted statute, that is enacted before January 1,
2022, deletes or extends that date.
(Amended (as amended by Stats. 2016, Ch. 887, Sec. 1) by Stats. 2017, Ch. 561, Sec. 178. (AB
1516) Effective January 1, 2018. Repealed as of January 1, 2022, by its own provisions. See
later operative version, as amended by Sec. 179 of Stats. 2017, Ch. 561. Note: This section was
amended on March 7, 2000, by initiative Prop. 21.)

Cal. Penal Code, § 1170: (as applicable)
(a) (1) The Legislature finds and declares that the purpose of sentencing is
public safety achieved through punishment, rehabilitation, and restorative
justice. When a sentence includes incarceration, this purpose is best served by
terms that are proportionate to the seriousness of the offense with provision for
uniformity in the sentences of offenders committing the same offense under
similar circumstances.
(2)

•••

(3) In any case in which the sentence prescribed by statute for a person
convicted of a public offense is a term of imprisonment in the state prison or a
term pursuant to subdivision (h) of any specification of three time periods, the
court shall sentence the defendant to one of the terms of imprisonment specified
unless the convicted person is given any other disposition provided by law,
including a fine, jail, probation, or the suspension of imposition or execution of
sentence or is sentenced pursuant to subdivision (b) of Section 1168 because they
had committed their crime prior to July 1, 1977. In sentencing the convicted
person, the court shall apply the sentencing rules of the Judicial Council. The
court, unless it determines that there are circumstances in mitigation of the
sentence prescribed, shall also impose any other term that it is required by law to
impose as an additional term. Nothing in this article shall affect any provision of
law that imposes the death penalty, that authorizes or restricts the granting of
probation or suspending the execution or imposition of sentence, or expressly
provides for imprisonment in the state prison for life, except as provided in
paragraph (2) of subdivision (d). In any case in which the amount of
preimprisonment credit under Section 2900.5 or any other law is equal to or
exceeds any sentence imposed pursuant to this chapter, except for the remaining
portion of mandatory supervision pursuant to subparagraph (B) of paragraph (5)
of subdivision (h), the entire sentence shall be deemed to have been served,
except for the remaining period of mandatory supervision, and the defendant
41

shall not be actually delivered to the custody of the secretary or to the custody of
the county correctional administrator. The court shall advise the defendant that
they shall serve an applicable period of parole, postrelease community
supervision, or mandatory supervision, and order the defendant to report to the
parole or probation office closest to the defendant’s last legal residence, unless
the in-custody credits equal the total sentence, including both confinement time
and the period of parole, postrelease community supervision, or mandatory
supervision. The sentence shall be deemed a separate prior prison term or a
sentence of imprisonment in a county jail under subdivision (h) for purposes of
Section 667.5, and a copy of the judgment and other necessary documentation
shall be forwarded to the secretary.
(b) When a judgment of imprisonment is to be imposed and the statute specifies
three possible terms, the choice of the appropriate term shall rest within the
sound discretion of the court. At least four days prior to the time set for
imposition of judgment, either party or the victim, or the family of the victim if
the victim is deceased, may submit a statement in aggravation or mitigation. In
determining the appropriate term, the court may consider the record in the case,
the probation officer’s report, other reports, including reports received pursuant
to Section 1203.03, and statements in aggravation or mitigation submitted by the
prosecution, the defendant, or the victim, or the family of the victim if the victim
is deceased, and any further evidence introduced at the sentencing hearing. The
court shall select the term which, in the court’s discretion, best serves the
interests of justice. The court shall set forth on the record the reasons for
imposing the term selected and the court may not impose an upper term by
using the fact of any enhancement upon which sentence is imposed under any
provision of law. A term of imprisonment shall not be specified if imposition of
sentence is suspended.
(c) The court shall state the reasons for its sentence choice on the record at the
time of sentencing. The court shall also inform the defendant that as part of the
sentence after expiration of the term they may be on parole for a period as
provided in Section 3000 or 3000.08 or postrelease community supervision for a
period as provided in Section 3451.
•••
Penal Code, § 1170.3.
The Judicial Council shall seek to promote uniformity in sentencing under
Section 1170 by:
(a) The adoption of rules providing criteria for the consideration of the trial judge
at the time of sentencing regarding the court’s decision to:
(1) Grant or deny probation.
(2) Impose the lower, middle, or upper prison term.

42

(3) Impose the lower, middle, or upper term pursuant to paragraph (1) or (2) of
subdivision (h) of Section 1170.
(4) Impose concurrent or consecutive sentences.
(5) Determine whether or not to impose an enhancement where that
determination is permitted by law.
(6) Deny a period of mandatory supervision in the interests of justice under
paragraph (5) of subdivision (h) of Section 1170 or determine the appropriate
period and conditions of mandatory supervision. The rules implementing this
paragraph shall be adopted no later than January 1, 2015.
(7) Determine the county or counties of incarceration and supervision when the
court is imposing a judgment pursuant to subdivision (h) of Section 1170
concurrent or consecutive to a judgment or judgments previously imposed
pursuant to subdivision (h) of Section 1170 in a county or counties.
(b) The adoption of rules standardizing the minimum content and the sequential
presentation of material in probation officer reports submitted to the court
regarding probation and mandatory supervision under paragraph (5) of
subdivision (h) of Section 1170.
(c) This section shall remain in effect only until January 1, 2022, and as of that
date is repealed, unless a later enacted statute, that is enacted before January 1,
2022, deletes or extends that date.
Penal Code, § 1259:
Upon an appeal taken by the defendant, the appellate court may, without
exception having been taken in the trial court, review any question of law
involved in any ruling, order, instruction, or thing whatsoever said or done at the
trial or prior to or after judgment, which thing was said or done after objection
made in and considered by the lower court, and which affected the substantial
rights of the defendant. The appellate court may also review any instruction
given, refused or modified, even though no objection was made thereto in the
lower court, if the substantial rights of the defendant were affected thereby.
Penal Code, § 1459:
Upon appeal by the people the reviewing court may review any question of law
involved in any ruling affecting the judgment or order appealed from, without
exception having been taken in the trial court. Upon an appeal by a defendant
the court may, without exception having been taken in the trial court, review any
question of law involved in any ruling, order, instruction, or thing whatsoever
said or done at the trial or prior to or after judgment, which thing was said or
done after objection made in and considered by the trial court and which affected
the substantial rights of the defendant. The court may also review any
instruction given, refused or modified, even though no objection was made
thereto in the trial court if the substantial rights of the defendant were affected
43

thereby. The reviewing court may reverse, affirm or modify the judgment or
order appealed from, and may set aside, affirm or modify any or all of the
proceedings subsequent to, or dependent upon, such judgment or order, and
may, if proper, order a new trial. If a new trial is ordered upon appeal, it must be
had in the court from which the appeal is taken.
California Rules of Court, Rule 4.401. Authority
The rules in this division are adopted under Penal Code section 1170.3 and under
the authority granted to the Judicial Council by the Constitution, article VI,
section 6, to adopt rules for court administration, practice, and procedure.
California Rules of Court, Rule 4.403. Application
These rules apply to criminal cases in which the defendant is convicted of one or
more offenses punishable as a felony by (1) a determinate sentence imposed
under Penal Code part 2, title 7, chapter 4.5 (commencing with section 1170) and
(2) an indeterminate sentence imposed under section 1168(b) only if it is imposed
relative to other offenses with determinate terms or enhancements.
Rule 4.403 amended effective January 1, 2018; adopted as rule 403 effective July 1,
1977; previously amended and renumbered effective January 1, 2001; previously
amended effective July 1, 2003, January 1, 2007, and January 1, 2017.
(a) How given
If the sentencing judge is required to give reasons for a sentence choice, the judge
must state in simple language the primary factor or factors that support the
exercise of discretion. The statement need not be in the language of the statute or
these rules. It must be delivered orally on the record. The court may give a single
statement explaining the reason or reasons for imposing a particular sentence or
the exercise of judicial discretion, if the statement identifies the sentencing
choices where discretion is exercised and there is no impermissible dual use of
facts.
(Subd (a) amended effective January 1, 2018; previously amended effective January 1,
2007.)
(b) When reasons required
Sentence choices that generally require a statement of a reason include, but are
not limited to:
(1) Granting probation when the defendant is presumptively ineligible for
probation;
(2) Denying probation when the defendant is presumptively eligible for
probation;
(3) Declining to commit an eligible juvenile found amenable to treatment to the
Department of Corrections and Rehabilitation, Division of Juvenile Justice;

44

(4) Selecting one of the three authorized terms in prison or county jail under
section 1170(h) referred to in section 1170(b) for either a base term or an
enhancement;
(5) Imposing consecutive sentences;
(6) Imposing full consecutive sentences under section 667.6(c) rather than
consecutive terms under section 1170.1(a), when the court has that choice;
(7) Waiving a restitution fine;
(8) Granting relief under section 1385; and
(9) Denying mandatory supervision in the interests of justice under section
1170(h)(5)(A).
(Subd (b) amended and renumbered effective January 1, 2018; previously amended
effective January 1, 2001, July 1, 2003, January 1, 2006, January 1, 2007, May 23, 2007,
and January 1, 2017.)
Rule 4.406 amended effective January 1, 2018; adopted as rule 406 effective January 1,
1991; previously amended and renumbered effective January 1, 2001; previously
amended effective July 1, 2003, January 1, 2006, January 1, 2007, May 23, 2007, and
January 1, 2017.
California Rules of Court, Rule 4.420. Selection of term of imprisonment
(a) When a sentence of imprisonment is imposed, or the execution of a sentence
of imprisonment is ordered suspended, the sentencing judge must select the
upper, middle, or lower term on each count for which the defendant has been
convicted, as provided in section 1170(b) and these rules.
(Subd (a) amended effective May 23, 2007; previously amended effective July 28, 1977,
January 1, 1991, and January 1, 2007.)
(b) In exercising his or her discretion in selecting one of the three authorized
terms of imprisonment referred to in section 1170(b), the sentencing judge may
consider circumstances in aggravation or mitigation, and any other factor
reasonably related to the sentencing decision. The relevant circumstances may be
obtained from the case record, the probation officer's report, other reports and
statements properly received, statements in aggravation or mitigation, and any
evidence introduced at the sentencing hearing.
(Subd (b) amended effective January 1, 2017; previously amended effective July 28, 1977,
January 1, 1991, January 1, 2007, May 23, 2007, and January 1, 2008.)
(c) To comply with section 1170(b), a fact charged and found as an enhancement
may be used as a reason for imposing a particular term only if the court has
discretion to strike the punishment for the enhancement and does so. The use of
a fact of an enhancement to impose the upper term of imprisonment is an
adequate reason for striking the additional term of imprisonment, regardless of
the effect on the total term.
45

(Subd (c) amended effective January 1, 2018; adopted effective January 1, 1991.)
(d) A fact that is an element of the crime on which punishment is being imposed
may not be used to impose a particular term.
(Subd (d) amended effective January 1, 2018; adopted effective January 1, 1991;
previously amended effective January 1, 2007, May 23, 2007, and January 1,
2008.)
(e) The reasons for selecting one of the three authorized terms of imprisonment
referred to in section 1170(b) must be stated orally on the record.
(Subd (e) amended effective January 1, 2017; previously amended and relettered effective
January 1, 1991; previously amended effective July 28, 1977, January 1, 2007, and May
23, 2007.)
Rule 4.420 amended effective January 1, 2018; adopted as rule 439 effective July 1, 1977;
previously amended and renumbered as rule 420 effective January 1, 1991; previously
renumbered effective January 1, 2001; previously amended effective July 28, 1977,
January 1, 2007, May 23, 2007, January 1, 2008, and January 1, 2017.
California Rules of Court, Rule 4.421. Circumstances in aggravation
Circumstances in aggravation include factors relating to the crime and factors
relating to the defendant.
(a) Factors relating to the crime
Factors relating to the crime, whether or not charged or chargeable as
enhancements include that:
(1) The crime involved great violence, great bodily harm, threat of great bodily
harm, or other acts disclosing a high degree of cruelty, viciousness, or
callousness;
(2) The defendant was armed with or used a weapon at the time of the
commission of the crime;
(3) The victim was particularly vulnerable;
(4) The defendant induced others to participate in the commission of the crime
or occupied a position of leadership or dominance of other participants in its
commission;
(5) The defendant induced a minor to commit or assist in the commission of the
crime;
(6) The defendant threatened witnesses, unlawfully prevented or dissuaded
witnesses from testifying, suborned perjury, or in any other way illegally
interfered with the judicial process;
(7) The defendant was convicted of other crimes for which consecutive sentences
could have been imposed but for which concurrent sentences are being imposed;
46

(8) The manner in which the crime was carried out indicates planning,
sophistication, or professionalism;
(9) The crime involved an attempted or actual taking or damage of great
monetary value;
(10) The crime involved a large quantity of contraband; and
(11) The defendant took advantage of a position of trust or confidence to commit
the offense.
(12) The crime constitutes a hate crime under section 422.55 and:
(A) No hate crime enhancements under section 422.75 are imposed; and
(B) The crime is not subject to sentencing under section 1170.8.
(Subd (a) amended effective May 23, 2007; previously amended effective January 1,
1991, and January 1, 2007.)
(b) Factors relating to the defendant
Factors relating to the defendant include that:
(1) The defendant has engaged in violent conduct that indicates a serious danger
to society;
(2) The defendant's prior convictions as an adult or sustained petitions in
juvenile delinquency proceedings are numerous or of increasing seriousness;
(3) The defendant has served a prior term in prison or county jail under section
1170(h);
(4) The defendant was on probation, mandatory supervision, postrelease
community supervision, or parole when the crime was committed; and
(5) The defendant's prior performance on probation, mandatory supervision,
postrelease community supervision, or parole was unsatisfactory.
(Subd (b) amended effective January 1, 2017; previously amended effective January 1,
1991, January 1, 2007, and May 23, 2007.)
(c) Other factors
Any other factors statutorily declared to be circumstances in aggravation or that
reasonably relate to the defendant or the circumstances under which the crime
was committed.
(Subd (c) amended effective January 1, 2018; adopted effective January 1, 1991;
previously amended effective January 1, 2007, and May 23, 2007.)
Rule 4.421 amended effective January 1, 2018; adopted as rule 421 effective July 1, 1977;
previously renumbered effective January 1, 2001; previously amended effective January 1,
1991, January 1, 2007, May 23, 2007, and January 1, 2017.
California Rules of Court, Rule 4.423. Circumstances in mitigation
47

Circumstances in mitigation include factors relating to the crime and factors
relating to the defendant.
(a) Factors relating to the crime
Factors relating to the crime include that:
(1) The defendant was a passive participant or played a minor role in the crime;
(2) The victim was an initiator of, willing participant in, or aggressor or provoker
of the incident;
(3) The crime was committed because of an unusual circumstance, such as great
provocation, that is unlikely to recur;
(4) The defendant participated in the crime under circumstances of coercion or
duress, or the criminal conduct was partially excusable for some other reason not
amounting to a defense;
(5) The defendant, with no apparent predisposition to do so, was induced by
others to participate in the crime;
(6) The defendant exercised caution to avoid harm to persons or damage to
property, or the amounts of money or property taken were deliberately small, or
no harm was done or threatened against the victim;
(7) The defendant believed that he or she had a claim or right to the property
taken, or for other reasons mistakenly believed that the conduct was legal;
(8) The defendant was motivated by a desire to provide necessities for his or her
family or self; and
(9) The defendant suffered from repeated or continuous physical, sexual, or
psychological abuse inflicted by the victim of the crime, and the victim of the
crime, who inflicted the abuse, was the defendant's spouse, intimate cohabitant,
or parent of the defendant's child; and the abuse does not amount to a defense.
(Subd (a) amended effective May 23, 2007; previously amended effective January 1,
1991, July 1, 1993, and January 1, 2007.)
(b) Factors relating to the defendant
Factors relating to the defendant include that:
(1) The defendant has no prior record, or has an insignificant record of criminal
conduct, considering the recency and frequency of prior crimes;
(2) The defendant was suffering from a mental or physical condition that
significantly reduced culpability for the crime;
(3) The defendant voluntarily acknowledged wrongdoing before arrest or at an
early stage of the criminal process;
(4) The defendant is ineligible for probation and but for that ineligibility would
have been granted probation;
48

(5) The defendant made restitution to the victim; and
(6) The defendant's prior performance on probation, mandatory supervision,
postrelease community supervision, or parole was satisfactory.
(Subd (b) amended effective January 1, 2017; previously amended effective January 1,
1991, January 1, 2007, and May 23, 2007.)
(c) Other factors
Any other factors statutorily declared to be circumstances in mitigation or that
reasonably relate to the defendant or the circumstances under which the crime
was committed.
(Subd (c) adopted effective January 1, 2018.)
Rule 4.423 amended effective January 1, 2018; adopted as rule 423 effective July 1, 1977;
previously renumbered effective January 1, 2001; previously amended effective January 1,
1991, July 1, 1993, January 1, 2007, May 23, 2007, and January 1, 2017.
(See generally: https://www.courts.ca.gov/cms/rules/index.cfm?title=four)

49

PROOF OF SERVICE (duplicate)
Title: ARTHUR LEE LEWIS v. CALIFORNIA

Court of Appeal Case No.:

B302108

===============================================================
The undersigned declares:
I am a citizen of the United States of America, over the age of eighteen years and
counsel for petitioner herein. My business address is 1535 Farmers Lane 133, Santa
Rosa, CA 95405.
On 22 September 2021 I served the attached, PETITION FOR CERTIORARI
& MOTION TO PROCEED IN FORMA PAUPERIS on the parties in this action by
placing a true copy thereof, in a sealed envelope with first class postage fully prepaid,
in the United States Mail, addressed as follows:

[x] Second District Court of Appeal
300 South Spring St., N.Tower,
L.A., CA 90013

[x] Attorney General of California
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
I declare under penalty of perjury under the laws of the State of California that
the foregoing is true and correct.
Sworn this 22 September 2021, at Santa Rosa, California

Kieran D. C. Manjarrez

